<html>
<title> - IMPLEMENTATION OF THE MATH AND SCIENCE PARTNERSHIP PROGRAM: VIEWS FROM THE FIELD</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



                         IMPLEMENTATION OF THE
                 MATH AND SCIENCE PARTNERSHIP PROGRAM:
                          VIEWS FROM THE FIELD

=======================================================================

                                HEARING

                               BEFORE THE

                        SUBCOMMITTEE ON RESEARCH

                          COMMITTEE ON SCIENCE
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 30, 2003

                               __________

                           Serial No. 108-32

                               __________

            Printed for the use of the Committee on Science


     Available via the World Wide Web: http://www.house.gov/science



90-162              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                                 ______

                          COMMITTEE ON SCIENCE

             HON. SHERWOOD L. BOEHLERT, New York, Chairman
LAMAR S. SMITH, Texas                RALPH M. HALL, Texas
CURT WELDON, Pennsylvania            BART GORDON, Tennessee
DANA ROHRABACHER, California         JERRY F. COSTELLO, Illinois
JOE BARTON, Texas                    EDDIE BERNICE JOHNSON, Texas
KEN CALVERT, California              LYNN C. WOOLSEY, California
NICK SMITH, Michigan                 NICK LAMPSON, Texas
ROSCOE G. BARTLETT, Maryland         JOHN B. LARSON, Connecticut
VERNON J. EHLERS, Michigan           MARK UDALL, Colorado
GIL GUTKNECHT, Minnesota             DAVID WU, Oregon
GEORGE R. NETHERCUTT, JR.,           MICHAEL M. HONDA, California
    Washington                       CHRIS BELL, Texas
FRANK D. LUCAS, Oklahoma             BRAD MILLER, North Carolina
JUDY BIGGERT, Illinois               LINCOLN DAVIS, Tennessee
WAYNE T. GILCHREST, Maryland         SHEILA JACKSON LEE, Texas
W. TODD AKIN, Missouri               ZOE LOFGREN, California
TIMOTHY V. JOHNSON, Illinois         BRAD SHERMAN, California
MELISSA A. HART, Pennsylvania        BRIAN BAIRD, Washington
JOHN SULLIVAN, Oklahoma              DENNIS MOORE, Kansas
J. RANDY FORBES, Virginia            ANTHONY D. WEINER, New York
PHIL GINGREY, Georgia                JIM MATHESON, Utah
ROB BISHOP, Utah                     DENNIS A. CARDOZA, California
MICHAEL C. BURGESS, Texas            VACANCY
JO BONNER, Alabama
TOM FEENEY, Florida
RANDY NEUGEBAUER, Texas
                                 ------                                

                        Subcommittee on Research

                     NICK SMITH, Michigan, Chairman
LAMAR S. SMITH, Texas                EDDIE BERNICE JOHNSON, Texas
DANA ROHRABACHER, California         MICHAEL M. HONDA, California
GIL GUTKNECHT, Minnesota             ZOE LOFGREN, California
FRANK D. LUCAS, Oklahoma             DENNIS A. CARDOZA, California
W. TODD AKIN, Missouri               BRAD SHERMAN, California
TIMOTHY V. JOHNSON, Illinois         DENNIS MOORE, Kansas
MELISSA A. HART, Pennsylvania        JIM MATHESON, Utah
JOHN SULLIVAN, Oklahoma              SHEILA JACKSON LEE, Texas
PHIL GINGREY, Georgia                RALPH M. HALL, Texas
SHERWOOD L. BOEHLERT, New York
                 DAN BYERS Subcommittee Staff Director
            JIM WILSON Democratic Professional Staff Member
       DAVID FINGER Professional Staff Member/Chairman's Designee
        ELIZABETH GROSSMAN, KARA HAAS Professional Staff Members
                      JAMES HAGUE Staff Assistant


                            C O N T E N T S

                            October 30, 2003

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Nick Smith, Chairman, Subcommittee on 
  Research, Committee on Science, U.S. House of Representatives..    10
    Written Statement............................................    11

Statement by Representative Eddie Bernice Johnson, Minority 
  Ranking Member, Subcommittee on Research, Committee on Science, 
  U.S. House of Representatives..................................    12
    Written Statement............................................    13

Prepared Statement by Representative Sheila Jackson Lee, Member, 
  Subcommittee on Research, Committee on Science, U.S. House of 
  Representatives................................................    13

                               Witnesses:

Dr. Osman Yasar, Principal Investigator, Targeted MSP Grant, 
  SUNY-Brockport
    Oral Statement...............................................    15
    Written Statement............................................    17
    Biography....................................................    63
    Financial Disclosure.........................................    68

Mr. Ed Chi, Science Teacher, Brighton School District, New York
    Oral Statement...............................................    69
    Written Statement............................................    70
    Biography....................................................    71
    Financial Disclosure.........................................    72

Mr. Jeffrey M. Mikols, Math Teacher, Rochester City School 
  District, New York
    Oral Statement...............................................    72
    Written Statement............................................    74
    Biography....................................................    75
    Financial Disclosure.........................................    76

Dr. M. Susana Navarro, Principal Investigator, Comprehensive MSP 
  Grant, University of Texas, El Paso
    Oral Statement...............................................    76
    Written Statement............................................    79
    Biography....................................................    84
    Financial Disclosure.........................................    85

Dr. Joan Ferrini-Mundy, Principal Investigator, Comprehensive MSP 
  Grant, Michigan State University
    Oral Statement...............................................    86
    Written Statement............................................    88
    Biography....................................................   106
    Financial Disclosure.........................................   107

Discussion.......................................................   108

             Appendix 1: Answers to Post-Hearing Questions

Dr. Osman Yasar, Principal Investigator, Targeted MSP Grant, 
  SUNY-Brockport.................................................   126

Mr. Ed Chi, Science Teacher, Brighton School District, New York..   127

Mr. Jeff Mikols, Math Teacher, Rochester City School District, 
  New York.......................................................   128

Dr. Susana Navarro, Principal Investigator, Comprehensive MSP 
  Grant, University of Texas, El Paso............................   129

Dr. Joan Ferrini-Mundy, Principal Investigator, Comprehensive MSP 
  Grant, Michigan State University...............................   131

             Appendix 2: Additional Material for the Record

Statement of the Museum of Science, Boston, MA...................   134

 
IMPLEMENTATION OF THE MATH AND SCIENCE PARTNERSHIP PROGRAM: VIEWS FROM 
                               THE FIELD

                              ----------                              


                       THURSDAY, OCTOBER 30, 2003

                  House of Representatives,
                          Subcommittee on Research,
                                      Committee on Science,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 12:33 p.m., in 
Room 2325 of the Rayburn House Office Building, Hon. Nick Smith 
[Chairman of the Subcommittee] presiding.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

                        SUBCOMMITTEE ON RESEARCH

                          COMMITTEE ON SCIENCE

                     U.S. HOUSE OF REPRESENTATIVES

                         Implementation of the

                 Math and Science Partnership Program:

                          Views From the Field

                       thursday, october 30, 2003
                          12:00 p.m.-2:00 p.m.
                   2325 rayburn house office building

1. Purpose

    On Thursday, October 30, the Subcommittee on Research of the House 
Science Committee will hold a hearing to discuss the implementation of 
the Math Science Partnership (MSP) Program at the National Science 
Foundation (NSF). The MSP Program, part of President Bush's No Child 
Left Behind initiative, was authorized by the House in last year's NSF 
Authorization Act, which was signed into law in December. The program 
provides grants to partnerships of universities and school districts 
(and sometimes businesses) to improve K-12 math and science education. 
This hearing will be the Congress's first look at how this major new 
initiative is working.

2. Witnesses

        <bullet> Dr. Osman Yasar (Oz-mon Yash-ar), lead researcher for 
        the Targeted MSP award at the State University of New York 
        (SUNY) Brockport. Dr. Yasar is a professor and chair of the 
        computational science department at SUNY College at Brockport. 
        He established the first undergraduate program in computational 
        science in the United States and, prior to SUNY, he was a staff 
        scientist at the Center for Computational Sciences at the Oak 
        Ridge National Laboratory.

        <bullet> Mr. Ed Chi (Chee), Science Teacher at Brighton School 
        District in New York. Mr. Chi teaches science to 7th and 8th 
        grade students at Twelve Corners Middle School in Rochester, 
        New York. Twelve Corners Middle School is the sole institution 
        educating students in grades 6-8 in the Brighton School 
        District.

        <bullet> Mr. Jeff Mikols, Math Teacher, at Rochester City 
        School District in New York. Mr. Mikols has been a teacher with 
        the Rochester City School District since 1993, and he has 
        taught courses ranging from pre-algebra to AP calculus. 
        Currently, Mr. Mikols is the Secondary Mathematics Lead 
        Teacher, which makes him responsible for providing professional 
        development to other secondary school math teachers. Mr. Mikols 
        received his B.A. in Mathematics and Master of Science in 
        Mathematics Education from SUNY-Geneseo, and he is currently 
        enrolled in a Certificate for Advanced Study in School 
        Administration.

        <bullet> Dr. Susana Navarro (Nav-ARR-o), lead researcher for 
        the Comprehensive MSP award at the University of Texas at El 
        Paso (UTEP). Dr. Navarro is the founder and the head of the El 
        Paso Collaborative for Academic Excellence, a city-wide effort 
        to improve the academic achievement of El Pasoans. Prior to the 
        Collaborative, Dr. Navarro served as National Director of 
        Research and Policy Analysis of the Mexican American Legal 
        Defense and Education Fund and Executive Director of the 
        Achievement Council. She graduated from the University of 
        Texas-El Paso with a degree in political science and she 
        continued her graduate studies at Sanford University, where she 
        ultimately earned her Ph.D. in educational psychology.

        <bullet> Dr. Joan Ferrini-Mundy (Fer-RINI-Mun-dy), lead 
        researcher for the comprehensive MSP grant at Michigan State 
        University. Dr. Ferrini-Mundy is Associate Dean for Science and 
        Math Education in the College of Natural Science at Michigan 
        State University, where she is also a Professor of Mathematics 
        and Teacher Education. Prior to joining Michigan State, Dr. 
        Ferrini-Mundy co-founded the SummerMath Program for Teachers at 
        Mount Holyoke College and she has been the principal 
        investigator of several research and teacher education grants. 
        She also has served as a Visiting Scientists at NSF's Teacher 
        Enhancement Program and as Director of the Mathematical 
        Sciences Education Board at the National Research Council.

3. Overarching Questions

    The hearing will address the following overarching questions:

        <bullet> How will awardees ensure that participants--
        mathematicians, scientists and engineers from higher education 
        as well as K-12 teachers and administrators--are active in the 
        program, drawing on the expertise of all partners? What role, 
        if any, will businesses or non-profit organizations play in the 
        partnership?

        <bullet> How will awardees provide meaningful, high quality 
        training for pre-service and in-service teachers? How will this 
        close the gap between the research findings on the way students 
        learn and actual classroom practice? How will improvements in 
        teacher content knowledge and pedagogy be assessed?

        <bullet> How will reform efforts align with each State's 
        challenging math and science standards and accountability 
        measures? What sort of in-depth, quantitative evaluation will 
        be conducted? And how will the results be disseminated?

        <bullet> Are the awards a sufficient size to develop and test 
        new education reform models? How will the partnerships 
        coordinate with State educational agencies to foster and 
        sustain the reform effort after the award period expires?

4. Brief Overview

        <bullet> For decades, educators and policy-makers have seen 
        statistics that demonstrate a lackluster performance of U.S. 
        students in math and science. Results from the National 
        Assessment of Educational Progress show that a majority of U.S. 
        students score below ``proficient'' in math and science, and 
        the Third International Math and Science Study highlight our 
        problems relative to other countries (see below).

        <bullet> In response, Congress enacted two bills--the National 
        Science Foundation Authorization Act of 2002 and the No Child 
        Left Behind Act of 2001--and created Math and Science 
        Partnership Programs at the Department of Education and the 
        National Science Foundation.

        <bullet> These partnerships were to work together, with the 
        National Science Foundation supporting model programs that 
        create partnerships between the departments of math, science 
        and engineering at colleges and universities with school 
        districts to improve math and science proficiency for K-12 math 
        and science teachers and students. The Department of Education 
        was tasked with bringing the reform efforts to scale with 
        grants to States and school districts.

        <bullet> The annual authorization for the Department of 
        Education partnership program is $450 million for Fiscal Year 
        (FY) 2002 and such sums for the next five fiscal years. The FY 
        2002 appropriation was $12.5, but the FY 2003 appropriation 
        grew to $100.3 million. The authorization for the National 
        Science Foundation partnership program is $200 million for FY 
        2003, $300 million for FY 2004, and $400 million for FY 2005. 
        The FY 2002 appropriation was $150 million and the FY 2003 
        appropriation was $127.5 million. The President has requested 
        $12.5 million and $200 million in FY 2004 for the Department of 
        Education and National Science Foundation partnership programs 
        respectively.

5. Background

    As part of the National Science Foundation Authorization Act of 
2002 (P.L. 107-368), the Congress established the Math and Science 
Partnership Program in response to President Bush's challenge to leave 
no child behind in education. Underlying this effort was data that 
showed that U.S. eighth and twelfth graders did not do well either by 
our own measurements or by international standards.
Student Achievement in Math and Science
    The most recent results of the National Assessment of Educational 
Progress (NAEP) show that the trend for student achievement is 
generally up over the last 30 years, yet large numbers of U.S. students 
demonstrate a mastery of only rudimentary mathematics. In fact, 31 
percent of 4th graders, 34 percent of 8th graders and 35 percent of 
12th graders scored below ``basic.'' Students in the basic category 
cannot demonstrate even partial mastery of the material that is 
appropriate for their age group, with, for instance, few 4th graders 
even knowing how many fourths make up a whole.
    These low levels of achievement are more likely among minority 
groups and among children from low-income backgrounds. In the 2000 
NAEP, 68 percent of African American 8th graders scored below basic in 
math compared to 23 percent of white students. And the achievement gap 
in NAEP math scores between white and black students and between white 
and Hispanic students has remained relatively unchanged since 1990.
    On the Third International Mathematics and Science Study (TIMSS), 
an assessment that evaluates the math and science performance of 4th, 
8th and 12th grade students from 42 different countries, U.S. 
performance relative to other nations declined with increased 
schooling. While U.S. children scored above average in elementary 
school, those in 12th grade--including our most advanced students--
ranked among the lowest of all participating countries, outperformed by 
nearly every industrialized nation and ahead of only Cyprus and South 
Africa.
    These scores are disappointing and the reasons for them are 
complex. Yet one thing is certain--U.S. students are not getting a math 
and science education that will allow them to learn to their greatest 
ability. And their lessons neither engage nor challenge them. As a 
result, unacceptably low numbers of students are motivated to enroll in 
physics or chemistry and only 20-25 percent of graduating high school 
seniors have completed enough mathematics to be ready to study science 
or engineering. Because students who require remedial education are 
less likely to consider majors that require prerequisite classes in 
math, such as those in the physical, engineering and computer sciences, 
lack of preparation at the high school level clearly plays a role in 
many students' decisions to choose a major other than those in science, 
mathematics, engineering or technology. It is therefore no surprise 
that science and engineering degrees as a percentage of the population 
of 24 year olds have remained virtually constant at 5-6 percent. Within 
this group, women and minorities are seriously under-represented.
Legislation
    Raising student achievement is the focus of No Child Left Behind, 
an initiative by President Bush to fundamentally reform K-12 education. 
As part of this five-year effort, Math and Science Partnerships 
Programs seek to unite the activities of higher education, school 
systems and business in support of improved math and science 
proficiency for K-12 students and teachers. This is in large part a 
response to national concerns regarding too many teachers teaching out 
of field, too few students taking advanced course work and too few 
schools offering challenging curricula.
    Ultimately, two programs were created. The first established a 
competitive, merit-based grant program at the National Science 
Foundation (NSF), as part of the NSF Authorization Act of 2002 (P.L. 
107-368). As enacted, this program would award grants to partnerships 
between institutions of higher education and one or more school 
districts to improve math and science education. Funds would be used to 
develop innovative reform programs that, if proven successful, would be 
the key to large-scale reform at the State level. The second was housed 
at the Department of Education and was created by the No Child Left 
Behind Act of 2001 (P.L. 107-110).
    Although similarly titled, the programs were created to be 
complementary to--not duplicative of--each other. Specifically, NSF was 
to fund innovative programs to develop and test new models of education 
reform, thereby remedying a lack of knowledge about math and science 
research, while the Department of Education would broadly implement and 
disseminate new teaching materials, curricula and training programs. In 
so doing, the Education Secretary was required to consult and 
coordinate with the NSF Director.
NSF's Math and Science Partnership Program
    NSF's Math and Science Partnership (MSP) Program competitively 
awards grants to institutions of higher education, or other eligible 
nonprofits, and their partners--one or more school districts--to 
improve K-12 math and science education. In particular, the MSP Program 
must have the active participation of a math, science, or engineering 
department (as opposed to the education department) at the college or 
university, and the collaborations must be well-grounded in sound 
educational practices. Funds are required to be used for activities 
that improve K-12 math and science education, consistent with State 
standards, which may include:

        <bullet> recruiting and preparing students for careers in K-12 
        math and science teaching,

        <bullet> offering professional development for math and 
        science teachers;

        <bullet> offering pre-service and in-service programs to help 
        math and science teachers use technology more effectively;

        <bullet> developing distance learning for teachers and 
        students;

        <bullet> developing a cadre of master teachers;

        <bullet> offering teacher preparation and certification 
        programs for people who want to switch careers and begin 
        teaching;

        <bullet> developing tools to evaluate MSP activities;

        <bullet> developing/adapting K-12 math and science curricular 
        materials that incorporate contemporary research on the science 
        of learning;

        <bullet> developing initiatives to increase and sustain the 
        number, quality and diversity of pre-K-12 teachers of math and 
        science, particularly in under-served areas;

        <bullet> using professionals to help recruit and train math 
        and science teachers;

        <bullet> developing or offering enrichment programs for 
        students;

        <bullet> providing research opportunities for students and 
        teachers; and

        <bullet> bringing scientists, engineers and other 
        professionals to the classroom.

    NSF supports two types of partnerships--Comprehensive and Targeted. 
Comprehensive projects are funded for a five-year period for up to $7 
million annually, depending on the scope of the project. These projects 
are intended to implement change in mathematics and/or science 
education practices in both institutions of higher education and in 
schools and school districts to result in improved student achievement 
across the K-12 continuum. Targeted projects focus on improved K-12 
student achievement in a narrower grade range or a disciplinary focus 
in mathematics and/or science and are funded for up to $2.5 million a 
year for up to five years. In addition, the MSP Program funds Research, 
Evaluation and Technical Assistance (RETA) projects, which provide 
large-scale research and evaluation capacity and assist Comprehensive 
and Targeted awardees in the implementation and evaluation of their 
work.
    The first competitions for MSP were held in FY 2002, for which $160 
million was appropriated, and resulted in seven Comprehensive awards, 
17 Targeted awards and 12 RETA awards. More recently, on October 2, NSF 
announced the award of $216.3 million in funding for the second year of 
the MSP Program, with five Comprehensive awards, seven Targeted awards, 
and 10 RETA awards.
Education
    The MSP Program at the Department of Education, which is authorized 
by Title II, Part B of the No Child Left Behind Act, requires 
partnerships to include a State educational agency, the engineering, 
math, or science department of an institution of higher education and a 
high-need school district. Partners are required to use their grants 
for one or more specific activities. Among them are the following:

        <bullet> professional development to improve math and science 
        teachers' subject knowledge;

        <bullet> activities to promote strong teaching skills;

        <bullet> math and science summer workshops;

        <bullet> recruitment of math, science or engineering majors to 
        teaching through signing and performance incentives;

        <bullet> stipends for alternative certification and 
        scholarships for advanced course work;

        <bullet> development or redesign of more rigorous standards 
        aligned math and science curricula;

        <bullet> distance learning programs for math and science 
        teachers; and

        <bullet> opportunities for math and science teachers to have 
        contact with working mathematicians, scientists and engineers.

    Unlike the NSF program, where funds are awarded competitively, the 
MSP Program at the Department of Education turns into a formula program 
to States when the amount appropriated exceeds $100 million. In FY 
2002, $12.5 million was appropriated for this program, but, in FY 2003, 
the appropriations hit the trigger ($100.3 million) and the funds were 
allocated to the States by the program's need-based formula.

6. Award Abstracts on the MSPs run by Hearing Witnesses (verbatim, as 
                    provided to NSF)

Promoting Rigorous Outcomes in Mathematics/Science Education (PROM/
                    SE)--(Michigan State)

Award Number: 0314866

Start Date: September 1, 2003

Expires: August 31, 2008 (Estimated)

Expected Total Amount: $35,000,000.00 (Estimated)

Investigator: Joan <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2b6d4e59594245420606414d4e59594245426b46585e054e4f5e">[email&#160;protected]</a> (Principal Investigator)

Sponsor: Michigan State University, East Lansing, MI 48824

NSF Program: MSP--Comprehensive Awards

    Promoting Rigorous Outcomes in Mathematics and Science Education 
(PROM/SE) is a five-year effort by a joint partnership between Michigan 
State University (MSU) and five consortia of school districts in 
Michigan and Ohio. The consortia includes three Intermediate School 
Districts in Michigan, Ingham, Calhoun, and St. Clair County, and two 
consortia in Ohio, the High AIMS Consortium and the SMART Consortium. 
The sixty-nine districts represent the broad range of social, economic, 
and cultural characteristics found in the United States as a whole 
being situated in large urban cities (Cleveland and Cincinnati) and 
their suburbs, in medium size cities with large minority populations 
such as Lansing, and in very rural areas such as those in St. Clair and 
Calhoun Counties.
    The Partnership utilizes a unique combination of research and 
practice. Detailed data from all students and teachers using 
instruments from the Third International Mathematics and Science Study 
(TIMMS) is gathered. On the basis of these data Action Teams of 
mathematicians, scientists, teacher educators and K-12 personnel 
collaborate to develop more focused and challenging content standards, 
align standards with instructional materials and improve mathematics 
and science teaching. Evidence-based and content focused professional 
development improves the subject matter knowledge of over 4,500 
teachers of mathematics and science. Associates for mathematics and for 
science are fully prepared and engaged in the complex work of helping 
undertake substantial reform in all 715 schools. The mathematics and 
science opportunities for approximately 400,000 students improve and 
tracking disappears in all schools by 2006.
    Eight hundred pre-service students participate and MSU reforms the 
preparation of future teachers through revision of pre-service 
education courses and programs. Partner sites mirror the diversity of 
the Nation as a whole and the prototype is exportable and replicable on 
a larger scale.

El Paso Math and Science Partnership

Award Number: 0227124

Start Date: October 1, 2002

Expires: September 30, 2007 (Estimated)

Expected Total Amount: $29,319,178 (Estimated)

Investigator: Susana <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="baf4dbccdbc8c8d59797d4dbccdbc8c8d5facfcedfca94dfdecf">[email&#160;protected]</a> (Principal 
Investigator)

Sponsor: U. of Texas-El Paso, University Ave. at Hawthorne, El Paso, 
TX 79968

NSF Program: MSP--Comprehensive Awards

    The El Paso Math and Science Partnership (El Paso MSP) includes the 
three urban school districts that encompass El Paso, nine rural school 
districts in El Paso and Hudspeth counties, the University of Texas at 
El Paso (UTEP), El Paso Community College, the Region 19 Education 
Service Center, and El Paso area civic, business and community 
organizations and leaders.
    The El Paso MSP is aimed at improving student achievement in 
mathematics and science among all students, at all pre-K-12 levels, and 
at reducing the achievement gap among groups of students. The goals of 
the partnership include:

        <bullet> fully engaging university and community college 
        leadership and mathematics, science, engineering and education 
        faculty in working toward significantly improved K-12 math/
        science student achievement;

        <bullet> ensuring the number, quality and diversity of K-12 
        teachers of mathematics and science across partner schools, 
        particularly schools with the greatest needs;

        <bullet> building the capacity of area districts and schools 
        to provide the highest quality curriculum, instruction and 
        assessment, and to ensure the highest level achievement in 
        mathematics and science for every student;

        <bullet> ensuring the K-16 alignment of mathematics and 
        science curriculum, instruction and assessment, to ensure that 
        students graduating from area high schools are prepared to 
        enroll and be successful in mathematics, science and 
        engineering courses at UTEP and El Paso Community College; and 
        prioritizing research on educational reform and pre-K-16 
        partnerships.

SUNY-Brockport College and Rochester City (SCOLLARCITY) Math and 
                    Science Partnership: Integrative Technology Tools 
                    for Pre-service and Inservice Teacher Education

Award Number: 0226962

Start Date: January 1, 2003

Expires: December 31, 2007 (Estimated)

Expected Total Amount: $3,385,448 (Estimated)

Investigator: Osman Yasar (Principal Investigator)

Sponsor: SUNY-Brockport, Brockport, NY 14420

NSF Program: MSP--Targeted Awards

Abstract

    The project is proposed by a partnership between SUNY-Brockport, 
Rochester City School District (RCSD) third largest in New York State 
with the lowest achievement scores and Brighton Central School District 
(BCSD) with similar gaps among under-represented groups yet with one of 
the highest overall achievement rates in the State. Additional partners 
are the Shodor Foundation and The Krell Institute. The primary goal for 
the partnership is to improve student outcomes in mathematics and 
science in grades 7-12 by creating a multi-agency approach for the 
recruitment and professional development of mathematics and science 
teachers. A Computational Mathematics Science and Technology (CMST) 
approach to learning science is employed in which students and teacher 
are engaged in fieldwork, laboratory experiments, mathematical 
modeling, computer simulation and visualization.
    CMST employs math models to describe physical phenomena therefore 
bringing a new perspective about the usefulness of math as a tool in 
real life. The method is designed to make science and mathematics 
concepts more easily comprehensible. A Challenge program incorporating 
CMST is providing tools and motivation for 200, grades 7-12 students, 
under the supervision of participating teachers. The approach in 
addition to teaching science concepts is designed to promote teamwork, 
collaboration and new strategies for problem solving. A component of 
the comprehensive professional development program for mathematics and 
science teachers is a four-week summer institute each year serving a 
total of 240 teachers. In addition there is a Master's degree program 
for 30 teachers. Pre-service education programs at SUNY-Brockport are 
being revised and new courses are to be introduced to assure an 
improvement in the quality quantity and diversity of the new teacher 
workforce.

7. Questions for Witnesses

Dr. Yasar

        <bullet> How will you ensure that participants--
        mathematicians, scientists and engineers from higher education 
        as well as K-12 teachers and administrators--remain active in 
        the program? What role, if any, will the Shodor Foundation and 
        the Krell Institute play in the partnership and in continuing 
        the reforms after the award period expires?

        <bullet> What type of professional development will your 
        partnership provide? How will you accommodate the unique 
        professional development needs of individual schools, 
        especially since they vary widely in terms of student 
        achievement? How will improvements in teacher content knowledge 
        and pedagogy be assessed?

        <bullet> Is your award a sufficient size to develop and test 
        your education reform model and achieve your partnership goals?

        <bullet> What sort of in-depth, quantitative evaluation will 
        be conducted? And how will the results of this evaluation be 
        disseminated?
Dr. Ferrini-Mundy

        <bullet> How will you ensure that participants--
        mathematicians, scientists and engineers from higher education 
        as well as K-12 teachers and administrators--remain active in 
        the program? How will you tailor your program to the unique 
        needs of the sixty-nine participating school districts?

        <bullet> What type of professional development will your 
        partnership provide for pre-service and in-service teachers? 
        How will you engage the nearly 4,500 teachers of math and 
        science, all at different levels of ability and knowledge, in 
        your reform efforts? How will improvements in teacher content 
        knowledge and pedagogy be assessed?

        <bullet> Is your award a sufficient size to develop and test 
        your education reform models and achieve your partnership 
        goals? How will the partnerships coordinate with State 
        educational agencies to foster and sustain the reform effort 
        after the award period expires?
Dr. Navarro

        <bullet> How will you ensure that participants--
        mathematicians, scientists and engineers from higher education 
        as well as K-12 teachers and administrators--remain active in 
        the program? What role, if any, will businesses and non-profit 
        organizations play in the partnership?

        <bullet> What type of professional development will your 
        partnership provide for pre-service and in-service teachers? 
        How will improvements in teacher content knowledge and pedagogy 
        be assessed?

        <bullet> Is your award a sufficient size to develop and test 
        your education reform models and achieve your partnership 
        goals? How will the partnerships coordinate with State 
        educational agencies to foster and sustain the reform effort 
        after the award period expires?
Mr. Chi and Mr. Mikols

        <bullet> How has the SUNY-Brockport MSP Project helped 
        teachers and administrators understand and embrace the need to 
        teach to high quality, standards-based math and science? Based 
        on what you know--and have experienced to date--are the 
        participating schools getting closer to providing high quality 
        math and science education for all students?

        <bullet> How have the professional development opportunities 
        provided by the MSP Project been different from other teacher 
        training programs in terms of content, duration and intensity?

        <bullet> What do you believe is the greatest barrier to 
        bringing the latest and best research on math and science 
        education into the classroom? Based on what you know, is 
        teacher practice in the classroom changing?

        <bullet> Based on your experience, how do we recruit and 
        retain the best math and science teachers? How has the MSP 
        Project addressed--or failed to address--these issues?
    Chairman Smith. The Subcommittee on Research will come to 
order. I want to welcome everybody here today. I apologize for 
the delay in the starting time.
    As a farmer, I use the analogy that our meeting today is a 
little bit about protecting our seed corn. What we are after, 
especially in this post-9/11 era, is a situation where we are 
going to have to be a little less dependent on students from 
other countries coming into our university systems to do our 
research. NSF reports that almost half of our research is still 
being done by foreign students who, through new regulations, 
are now under a little greater pressure to leave our country 
after they finish their postgraduate or graduate work.
    Last year, during the consideration of legislation to 
authorize the Math and Science Partnership Program, I asked our 
witnesses to consider the following question: if education, 
especially in the early years, is more the lighting of a fire, 
an interest, rather than filling a container with knowledge, 
when is the fire lit? And several of the witnesses said 
probably between four years old and six or seven years old. To 
get that kind of an interest early on and then the follow-up 
question, of course, is how do you kindle that fire to keep it 
going through the rest of high school and through college?
    The results from the most recent Third International Math 
and Science Study, the TIMSS study, as well as evidence all 
around us, demonstrate, I think in very stark terms, the need 
to improve math and science achievement for all students. Our 
witnesses today are experts in that area. We look forward to 
your suggestions and ideas as we move ahead, and the situation 
is that while U.S. students are nearly first in the world in 
science, and above the international average in mathematics in 
grade four, this leadership or predominance is short-lived. In 
fact, the longer U.S. students are in school, the farther they 
fall behind. By twelfth grade, U.S. students rank among the 
lowest of all participating countries, and ahead of only two 
countries, Cyprus and South Africa.
    In response to this data, President Bush proposed the Math 
and Science Partnership. We moved ahead legislatively to put 
that into action. We have had it for the fiscal years '02 and 
'03. Now, we are moving into '04. Through its awardees, the 
Math and Science Partnership Program also seeks to address, in 
a comprehensive manner, the weaknesses in U.S. math and science 
education. While recognizing that there is no one factor that 
makes all the difference, we do know that kids can't learn what 
their teachers don't truly understand. We also know that too 
many standards lack the necessary academic rigor, or they maybe 
exist in name only, having not yet been linked with assessments 
and professional development and curricula and classroom 
practice.
    Our goal here today is not to, I think, point a finger of 
blame at anybody. Our goal is to join the search for solutions 
and to underscore two fundamental truths: that all children can 
learn, and that no child should be denied the math and science 
spark that is so important in our new technological age.
    Today, I am especially pleased to welcome true experts in 
education reform, teachers and educators and implementers of 
our new Math and Science Partnership Program, and as you can 
imagine, my colleagues and I spend a lot of time talking about 
you, but perhaps too little time listening to you. It is such 
an important endeavor, and so crucial to the economic success 
of the United States.
    As we look at other countries that are copying our ways of 
producing, trying to be as efficient as we are, what is going 
to keep us at the cutting edge, it would seem to me, is the 
math and the science and the evolving research of developing 
new products that people want to buy, and developing the kind 
of methods to produce those products that allow us to be 
efficient and competitive with, ultimately, the price we sell 
the product for.
    In conclusion, let me thank you again for being here, and 
before we get to our witnesses, I would call on Representative 
Eddie Bernice Johnson. She took us down to Texas last year to 
study a similar situation of how we do a better job moving 
ahead in math and science, so Representative.
    [The prepared statement of Chairman Smith follows:]

               Prepared Statement of Chairman Nick Smith

    I want to welcome everyone here for what I hope will be a series of 
hearings on the Math and Science Partnership Program and the 
implementation of the National Science Foundation Authorization Act of 
2002 generally.
    Last year, during the consideration of legislation to authorize the 
Math and Science Partnership Program, I asked our witnesses to consider 
the following question: if education is more the lighting of a fire 
than the filling of a container, when is that fire lit for math and 
science and what keeps it burning?
    They all had different answers. Some said third grade. Others said 
kindergarten. And still others said pre-school. Yet they all agreed 
that our greatest failure--and our greatest challenge--was that too 
many children failed to experience the spark at all. As a result, too 
few pursued math and science education.
    Results from the most recent Third International Math and Science 
Study (TIMSS)--as well as evidence all around us--demonstrate in stark 
terms the need to improve math and science achievement for all 
students. While U.S. students are nearly first in the world in science 
and above the international average in mathematics in grade four, this 
predominance is short-lived. In fact, the longer U.S. students are in 
school, the farther they fall. By 12th grade, U.S. students rank among 
the lowest of all participating countries and ahead of only Cyprus and 
South Africa.
    In response to this data, President Bush proposed the Math and 
Science Partnership Program as part of his comprehensive No Child Left 
Behind reform initiative. This program was created to support 
partnerships between colleges and universities and elementary and 
secondary schools but it also sought to challenge long held practices 
and to support innovative projects in math and science.
    Through its awardees, the Math and Science Partnership Program also 
seeks to address in a comprehensive manner the weaknesses in U.S. math 
and science education. While recognizing that there is no one factor 
that makes all the difference, we do know that kids can't learn what 
their teachers don't truly understand. We also know that too many 
standards lack the necessary academic rigor or they exist in name only, 
having not yet been linked with assessments, professional development, 
curricula, and classroom practice.
    Yet, our goal here today is not to point the finger of blame. Our 
goal is to join in the search for solutions and to underscore two 
fundamental truths--that all children can learn and that no child 
should be denied the math and science spark that will carry them 
through their formal education and into the world of work.
    Today, I am especially pleased to welcome true experts in education 
reform--teachers and education researchers. As you can imagine, my 
colleagues and I spend a lot of time talking about you, but perhaps too 
little time listening to you. So it is indeed a great honor to have you 
here to explain how you are using the Math and Science Partnership 
funds to light the spark of interest and improve the achievement of all 
students.
    I would also be interested to know how we can encourage even more 
businesses and private organizations--perhaps through recognition or 
awards--to join in these partnerships and help extend our reach to more 
students and teachers. I know I speak for the entire subcommittee when 
I say that we look forward to your testimony.
    In just a moment, I will proceed with introductions but I will 
first recognize Ranking Member Johnson for whatever statement she may 
wish to make.

    Ms. Johnson. Thank you very much. Mr. Chairman, I am 
pleased to join you in welcoming our witnesses today to this 
initial hearing on the implementation of the National Science 
Foundation's Math and Science Partnership Program. I especially 
would like to thank Dr. Susana Navarro, who is leading the El 
Paso Math and Science Partnership, for appearing today. Her 
project involves several urban and rural school districts, and 
has an important goal of working to reduce the achievement gap 
often seen by disadvantaged students.
    During the last Congress, the Science Committee examined in 
some depth the question of how to improve science, math and 
technology education for all students in the Nation's schools. 
We looked at such issues, at improving teacher training and 
professional development, developing more effective curriculum, 
making use of education technologies and stimulating greater 
student interest in science.
    The Committee's inquiries led to legislation whose 
centerpiece was the Math and Science Partnership Program. I had 
been trying to pass it for years. The program--I was the wrong 
party--the program was subsequently enacted as part of the 
National Science Foundation Authorization Act last year.
    The key components of the partnerships program, in my view, 
are to obtain a serious commitment of time and effort from 
science, math and engineering faculty at the participating 
institutions, to institute changes at all the participating 
institutions that will lead to lasting educational improvement 
and to assure that the program has built-in and effective 
mechanisms to assess program outcomes.
    Today, we will hear from some awardees from the Math and 
Science Partnership Program. I hope we will learn how they form 
their partnerships and get a sense of the level and engagement 
of the participants from academia and the schools. I am also 
interested in the kinds of educational activities that the 
partnerships will focus on, and to what extent they are guided 
by research findings on human development and learning.
    While I am pleased to see that a few minority serving 
institutions have been able to participate as partners in the 
Math and Science Programs, three historically black 
universities, Tuskegee, Fayetteville State and Lincoln 
University, the Northwest Indian College and the University of 
Puerto Rico, which are not African-American, of course, I am 
quite disappointed that no minority serving institutions have 
been granted an award as a lead partner, and this is 
particularly disturbing, considering the roles of HBCUs and 
other minority serving institutions play among institutions of 
higher education to increase this nation's supply of math and 
science teachers in the minority communities.
    Finally, I would like to welcome any recommendations from 
the panel on ways to strengthen the National Science 
Foundation's partnerships program, including any suggestions 
for improving the administration of the program.
    Again, Mr. Chairman, I want to thank you for calling this 
hearing and thank our witnesses for appearing before the 
Subcommittee today, and I look forward to discussion. If there 
is anyone in the house from the number one science and 
engineering high school in the country, which is in my 
district, I would like to acknowledge them. Thank you.
    [The prepared statement of Ms. Johnson follows:]

       Prepared Statement of Representative Eddie Bernice Johnson

    Mr. Chairman, I am pleased to join you in welcoming our witnesses 
today to this initial hearing on the implementation of the National 
Science Foundation's Math and Science Partnership Program.
    I especially would like to thank Dr. Susana Navarro, who is leading 
the El Paso Math and Science Partnership, for appearing today. Her 
project involves several urban and rural school districts and has an 
important goal of working to reduce the achievement gap often seen for 
disadvantaged students.
    During the last Congress, the Science Committee examined at some 
depth the question of how to improve science, math and technology 
education for all students in the Nation's schools. We looked at such 
issues as improving teacher training and professional development, 
developing more effective curriculum, making use of educational 
technologies, and stimulating greater student interest in science.
    The Committee's inquiries led to legislation whose centerpiece was 
the Math and Science Partnerships Program. The Program was subsequently 
enacted as part of the NSF Authorization Act last year.
    The key components of the partnerships program, in my view, are to 
obtain a serious commitment of time and effort from science, math and 
engineering faculty at the participating institutions, to institute 
changes at all of the participating institutions that will lead to 
lasting educational improvements, and to assure that the program has 
built-in and effective mechanisms to assess program outcomes.
    Today, we will hear from some awardees from the Math and Science 
Partnership Program. I hope we will learn how they formed their 
partnerships and get a sense of the level of engagement of the 
participants from academia and the schools. I am also interested in the 
kinds of educational activities the partnerships will focus on and to 
what extent they are guided by research findings on human development 
and learning.
    While I am pleased to see that a few Minority Serving Institutions 
(MSIs) have been able to participate as partners in the Math and 
Science Program (three Historically Black Universities, Tuskegee, 
Fayetteville State and Lincoln Universities, Northwest Indian College 
and the University of Puerto Rico), I am quite disappointed that no 
MSIs has been granted an award as a Lead Partner. This is particularly 
disturbing considering the roles HBCUs and other MSIs play among 
institutions of higher education in increasing this nation's supply of 
math and science teachers in our minority communities.
    Finally, I would welcome any recommendations from the panel on ways 
to strengthen the NSF partnerships program, including any suggestions 
for improvements in the administration of the program.
    Mr. Chairman, I want to thank you for calling this hearing and 
thank our witnesses for appearing before the Subcommittee today. I look 
forward to our discussion.

    The prepared statement of Ms. Jackson Lee follows:]

        Prepared Statement of Representative Sheila Jackson Lee
Mr. Chairman,

    Thank you for calling this important hearing on the National 
Science Foundation's Math and Science Partnership (MSP). Every program 
we design here in the Science Committee, every initiative we fund at 
NASA or at the DOE or elsewhere, will be critically dependent on having 
qualified scientists and engineers to fill the tech jobs of the future. 
All of our great plans could be pipe dreams if we don't make the 
appropriate investment in our children. That investment could pay huge 
dividends in the future, if we help give kids the skills in math and 
science that will place them on the cutting edge in their careers to 
come.
    Unfortunately, we have not been making the right investments, and 
it shows. For decades, American children have been performing poorly in 
science and math when compared to their international counterparts, or 
when measured against American standards. Across the board, about one 
third of kids cannot even score the ``basic'' level on standardized 
tests. It seems that a large proportion of our children are being left 
behind. Those children from low-income families, or minority groups are 
especially at risk.
    This poor performance does not bode well for the future of our 
scientific endeavors or our high-tech economy. That is why the Congress 
moved in 2002 to establish the MSP in the NSF Authorization Act of 
2002. The program will provide grants to enable collaborative efforts 
amongst schools, universities, colleges, and the private sector to 
improve the experiences of K-12 children in science and math. This 
program is meant to compliment the No Child Left Behind Act of 2001.
    Now that we have had a year or so to let this program work, I think 
it is an excellent time to get some input on how things are going at 
the ground level. Unfortunately, the Congress has not yet fully funded 
these programs. In fact, for FY 2003, MSP was funded at a level just a 
bit more than half of its authorized level. So, it probably has not yet 
had much of an effect. However, hopefully we can get some indications 
of challenges and pitfalls from the field that will enable us to tune 
the program, or maybe motivate appropriators to fund this program fully 
in the future.
    I thank the panelists for taking the time out of their busy 
schedules to share their experiences with us today. I especially 
welcome the teachers. Your classrooms are where the rubber hits the 
road. I look forward to your testimony.
    Thank you.

    Chairman Smith. Thank you, and just a moment. Allow me to 
introduce our great witnesses today.
    Dr. Ferrini-Mundy is the lead researcher for the 
Comprehensive MSP grant at Michigan State University. Dr. 
Ferrini-Mundy is Associate Dean for Science and Math Education 
in the College of Natural Science at Michigan State University, 
where she is also a professor of mathematics and teacher of 
education. Prior to joining Michigan State, Dr. Ferrini-Mundy 
co-founded the SummerMath Program for Teachers at Mount Holyoke 
College and she has been the principal investigator of several 
research and teacher education grants, both at Michigan State 
University and the University of New Hampshire. She also has 
served as a visiting scientist at NSF's Teacher Enhancement 
Program.
    Dr. Osman Yasar is lead researcher for the Targeted MSP 
award at the State University of New York at the SUNY-
Brockport. Dr. Yasar is a professor and Chair of the 
Computational Science Department at SUNY College at Brockport. 
He established the first undergraduate program in computational 
science in the United States and prior to SUNY, he was a staff 
scientist at the Center for Computational Sciences at the Oak 
Ridge National Laboratory.
    Mr. Ed Chi, science teacher at Brighton School District in 
New York. Mr. Chi teaches science to seventh and eighth grade 
students at Twelve Corners Middle School in Rochester, New 
York. Twelve Corners Middle School is the sole institution 
educating students in grades six to eight in the Brighton 
School District, so we will look forward to a person on the 
ground on your suggestions of dealing with students.
    Mr. Jeffrey Mikols is a math teacher, Rochester City School 
District in New York. Mr. Mikols has been a teacher with the 
Rochester School District since 1993, and he has taught courses 
ranging from pre-algebra to AP calculus. Currently, Mr. Mikols 
is the secondary mathematics lead teacher, which makes him 
responsible for providing professional development to other 
secondary school math teachers, and Mr. Mikols received his 
B.A. in mathematics and master of science in mathematics 
education from SUNY in Geneseo and--is that right, Geneseo?
    Mr. Chi. Geneseo.
    Chairman Smith. Geneseo. And he is currently enrolled in 
the certificate for advanced study in the school 
administration.
    Dr. Susan Navarro, lead researcher for the Comprehensive 
MSP award at the University of Texas at El Paso. Dr. Navarro is 
the founder and head of the El Paso Collaborative for Academic 
Excellence, a city-wide effort to improve the academic 
achievement of El Paso students. Dr. Navarro has served as 
National Director of Research and Policy Analysis of the 
Mexican-American Legal Defense and Educational Fund, and Dr. 
Navarro, we appreciate you being here. You also graduated from 
the University of Texas in El Paso with a degree in political 
science. And again, thank you all for being here and for 
sharing some of your thoughts with us, and Dr. Yasar, we are 
asking you to proceed with your first testimony.

 STATEMENT OF DR. OSMAN YASAR, PRINCIPAL INVESTIGATOR FOR THE 
              TARGETED MSP GRANT AT SUNY-BROCKPORT

    Dr. Yasar. Mr. Chairman, distinguished Members of the 
Committee, I am honored to be here. Thank you for inviting me. 
I was born in Turkey, so I went through a different public 
school system. I came here for a graduate education, and 
several things that--bring me into this project, certainly one 
is that I have a child in the school system at Brighton, 13 
years old, whose interest in science may be slipping away, so I 
am really interested in helping her school and herself.
    Another effort that I have been involved with is, as you 
said, in the Department of Computational Science, one of a kind 
in the country. This is a unique way of approaching 
mathematics, science and computing, in an integrated way. We 
have great results at the college level, and the idea of taking 
that to K-12 to raise the interest of students was very 
interesting, and I thank the NSF and the review panels for 
allowing us this opportunity to work on this.
    I might report right away that our project has been very 
successful in terms of creating enthusiasm in teachers and 
students. I am sure you will be hearing from Mr. Mikols and Mr. 
Chi about their experience. This project involves SUNY College 
and two school districts, an urban school district and a 
suburban school district. This is a pretty common pattern in 
the country. Rochester, with 35,000 students and Brighton, with 
3,000 students.
    Rochester has been experiencing very low achievement rates, 
as low as 11 percent in eighth grade mathematics, so there is a 
definite need there. Brighton's role here is not only to 
benefit from our unique methodology, using technology, but also 
to give to the partnership through its experience and so on.
    We also have two national organizations, Shodor Education 
Foundation and Krell Institute. I have colored them on my 
presentation. Their role is to bring to us their experience 
from the national level, as well as help us disseminate the 
result.
    Texas Instruments is part of this partnership. We use their 
specialists, training specialists. The Xerox Corporation's role 
is to offer internships to our students, both in high school 
and at the college level, and then to disseminate our results 
in the local community, we work with the Monroe County School 
Boards Association and New York State Education Department. We 
have partnered with another NSF MSP project, the Council of 
Chief State Schools Officers, to use their evaluation 
instrumentation.
    And now, recently, we have been invited to work with 
another partnership program under NSF named PACI (Partnerships 
for Advanced Computational Infrastructure). I believe this is 
also reviewed under this committee.
    Mr. Chairman, this partnership project is not only 
partnership in school districts and colleges. Certainly, the 
goal is to improve student achievement and interest, both at 
the public schools and colleges, and as you may see in other 
projects in this program, raising quality and quantity of 
teachers is the key here.
    Another partnership that goes on under this umbrella is the 
partnership of mathematics and science as topics. And this, I 
believe, is our approach. We have taken an integrated approach 
to mathematics and science, in a way, to present the 
mathematics and technology in a context of applications. This, 
we believe, raises student interest and so on.
    Our way to achieve this goal is certainly to offer 
professional development to teachers and faculty members in the 
college through training and mentoring, through support, 
including technology scholarships and stipends, and through 
team approaches and peer networking.
    From students' point of view, teachers with new pedagogies, 
using technology in an integrated approach, as well as 
scholarships, is a way that our team has chosen to attack this 
problem.
    In the past year, we held a summer institute that brought 
together 56 teachers from two school districts, and the 
training brought together math and science and technology 
teachers. All of them were subject to the same material. All of 
them had a chance to work together to see how useful 
mathematics is in the context of applications and so on. Again, 
our approach is well documented in the testimony here. We 
believe this offers a layered approach and inquiry-based 
approach, some of the things that are very new for a project 
like ours.
    Under professional development, we have an education 
component and a challenging component to make sure the needs of 
many schools and individuals are also addressed here. I will be 
skipping to my last slide here to sum up. The results of our 
training so far have been evaluated by independent consultants, 
and 100 percent of teachers have rated this very successful, 
and they want to come back the next year. This is an ongoing 
training and education opportunity for teachers as well as 
students. We are very hopeful that the dissemination of this 
project and the lessons learned here will help others in the 
country as well.
    [The prepared statement of Dr. Yasar follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Chairman Smith. I am going to proceed the way you are 
arranged in my book, so Mr. Mikols, if you would--if you're 
comfortable in going next.
    Mr. Mikols. Sure. Okay. Again, I asked the----
    Chairman Smith. Actually, I see Mr. Chi is ahead of you in 
my book.
    Mr. Mikols. Oh.
    Chairman Smith. So it is not your turn.
    Mr. Mikols. Oh. Then I will--let me turn mine off.
    Mr. Chi. There we go.
    Chairman Smith. Mr. Chi, excuse me, please.

STATEMENT OF ED CHI, SCIENCE TEACHER, BRIGHTON SCHOOL DISTRICT, 
                            NEW YORK

    Mr. Chi. That is not a problem, Chairman. First, I would 
like to thank everyone on the Committee for the invitation to 
come and speak.
    And I first would like to begin with talking about why the 
MSP program is a necessary program. First, it is truly 
interdisciplinary. Through it, I have learned, and I have also 
shown my students, that no subject is an island. I often hear 
in my class that--they see, they are beginning to see 
connections between science and math and technology. And it 
often astounds them, because I guess in the past, they have 
seen each subject treated as an individual, and not together in 
a group, so this is one of their first opportunities to see all 
these different disciplines coming together in one activity.
    Also, it is truly interdisciplinary in the fact that it 
incorporates math and technology into the science classroom. We 
are using math and we are using technology to do science in our 
classrooms, and I often hear my students say ``Wow, this class 
is getting to be more like a math class than a science class.'' 
They are often checking to see if they are in the right room. 
So, I think that is testimony in itself that the program is 
working.
    Another reason why this is a necessary program is because 
it is truly unique. I have attended many programs for 
professional development, and very few have really put together 
teachers that are in fact helping to shape the program as well. 
There is a youthful energy to everyone in the program, because 
we are--we feel as though we are on the cutting edge, and that 
is inspiring us and that is motivating us, and we are bringing 
that into the classroom as well.
    Also, there is long-term continuous collaboration going on. 
Oftentimes, the second workshop is done, we get a little 
handout rating the workshop, but there has not been a clear 
cutoff point for this program. It is continuous. There is 
continuous collaboration going on between teachers in the 
classrooms and professors at the college, and amongst teachers 
between districts. And we also feel that the program and its 
administrators are invested in us. We feel as though we are--I 
hate to put it this way, but we feel as though we are star 
players in this program, and we definitely appreciate that.
    Secondly, how is the MSP program achieving its goals? We 
are collaborating with teachers. Teachers are talking to each 
other. There is open conversation going on. We are not just 
isolated in our own classrooms any more. They have also helped 
us to develop meaningful lesson plans. We have been able to 
overcome our initial fear of technology being incorporated into 
the classroom. They are exposing us and forcing us to be 
adventurous with our teaching styles. We have also been able to 
hone existing skills, any prior knowledge or any existing 
skills. We are able to advance and also we are able to share 
this with fellow colleagues. There is collaboration with 
administrators. There are plans to have a get together to 
discuss our mission statement with administrators all over the 
districts that are involved.
    Also, we are getting students excited and interested, and 
ultimately, that is what we want. The simulation programs and 
the modeling programs have put them in charge. They are in 
charge of their own learning. They are beginning to--they are 
the creators of their learning, and they are pulling the 
strings, and by taking us, by that I mean the teachers, by 
taking us out of the driver's seat and putting them into it, 
they are beginning to own their education. They are--because 
they are so inspired--they go beyond where we would typically 
bring them.
    There are, of course, some barriers to achieving our goals. 
There is always administration who aren't always as supportive 
as they could be, in terms of valuing technology and seeing it 
as an important component of education. Then there are also 
teachers who feel as though they themselves are not savvy 
enough to take on the responsibility and take on the skills 
that are required to teach technology and incorporate it into 
the science and math classroom, but the program is slowly but 
surely taking teachers who are savvy and teachers who are 
willing to take risks, and bringing them into the school, so 
that they can inspire students, and at the same time, because 
we have inspired students, other teachers are curious as to 
what we are doing to inspire students, and therefore, that is 
sort of a contagious atmosphere where other teachers can take 
some of that fear away and dive into the technology as well.
    And that is really all I have to say for today. Thank you.
    [The prepared statement of Mr. Chi follows:]

                      Prepared Statement of Ed Chi

    How has the SUNY-Brockport MSP Project helped teachers and 
administrators understand and embrace the need to teach to high 
quality, standards-based math and science? Based on what you know--and 
have experienced to date--are the participating schools getting closer 
to providing high quality math and science education for all students?

    The CMST program has made plans to speak to and collaborate with 
participating teachers and their administrators. Their goal is to share 
the CMST mission statement with these administrators and seek ways to 
support the efforts of the CMST teachers and coaches. At Twelve Corners 
we have taken steps to load modeling software onto school networks and 
share activities and knowledge with faculty at department meetings. The 
students in my classes have expressed great interest in receiving 
training on modeling software and creating opportunities to allow them 
to take charge of their learning.

    How have the professional development opportunities provided by the 
MSP Project been different from other teacher training programs in 
terms of content, duration and intensity?

    The content was technologically intensive yet practical. We could 
see ways to integrate them into our own programs. There was a constant 
theme of interdisciplinary approaches to these activities. They made 
every attempt to include math, science and technology into every aspect 
of the training. This was no small feat.
    Most professional development workshops end when the presenters and 
facilitators hand out evaluation forms. The CMST has kept their promise 
to continue the collaboration well beyond the end of the summer 
program. We communicate via weekly teacher's logs and coach's logs. 
There have been invaluable meetings where we have offered feedback and 
suggestions on ways to make the program more effective. I feel as 
though I am partly responsible for shaping the CMST program not just 
participating in it. Perhaps it is because this is a young program in 
Brockport or because the people are confident enough in their own area 
of expertise to listen to others. Whatever the reason I feel a true 
sense of collegiality here.

    What do you believe is the greatest barrier to bringing the latest 
and best research on math and science education into the classroom? 
Based on what you know, is teacher practice in the classroom changing?

    For myself thus far the greatest barrier has been the lack of 
technology available in the schools. This can stifle the efforts of the 
teacher to incorporate meaningful activities in the classroom. If it 
was not for the talents of the CMST faculty I would be unable to 
provide my students with the ability to explore the connections between 
science, math and technology in my classroom in a meaningful way.

    Based on your experience, how do we recruit and retain the best 
math and science teachers? How has the MSP Project addressed--or failed 
to address--these issues?

    Good pay incentives, access to technology plus the support to get 
it into the hands of students and use it effectively in the classrooms 
attracts good teachers and keeps them. I will admit that the pay, 
technology, and support incentives provided by the CMST program drew me 
in, and has meet and exceed my expectations.

                          Biography for Ed Chi

    Ed Chi teaches science to 7th and 8th grade students at Twelve 
Corners Middle School in Rochester, New York. Twelve Corners Middle 
School is the sole institution educating students in grades 6-8 in the 
Brighton School District.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Chairman Smith. Mr. Chi, very good, thank you. Mr. Mikols.

 STATEMENT OF JEFFREY M. MIKOLS, MATH TEACHER, ROCHESTER CITY 
                   SCHOOL DISTRICT, NEW YORK

    Mr. Mikols. Again, I would like to thank this committee for 
inviting me to speak and give testimony about what it is that 
we have experienced. And in my role as a lead teacher in the 
Rochester City School District, I am in a unique--I have a 
unique opportunity to promote change, and as you, Mr. Smith, 
mentioned with the TIMSS Report, the concern that we have as to 
how the United States is doing is something I share within our 
own district. Our district, right now, as Dr. Yasar has 
mentioned, is not a high performing district right now, and it 
is a burden that we all carry, and we realize that the need for 
change is extremely important.
    And technology is one of the mechanisms we can use to 
change the way that teachers are approaching math and science. 
Technology, for many kids, in and of itself, is very, very 
interesting to them. I have two young sons at home, and just 
get them a Game Boy and they are clicking away, and they have a 
great time with that. But perhaps more importantly, what 
technology does is it facilitates investing in topics of 
student interest. They find something that they are interested 
in, and the use of technology lets them gather information, 
draw conclusions, verify conclusions in a way that is much 
quicker than we have ever been able to do before, so this use 
of technology is very appropriate.
    Technology has made it possible to change the way teachers 
approach math and science, and they can make lessons that are 
exciting and relevant to student interest. That is the key 
thing. Teachers can teach what they think is important, but 
until it gets down to the point where students are pursuing 
things that are directly relevant to them and interesting to 
them, they are not going to achieve to where we want them to be 
achieving.
    In my role, I do conduct quite a bit of professional 
development, and having been trained in the Summer Institute, 
and also having some prior experience with graphing 
calculators, we have made that a priority in our district, that 
all schools should have teachers that are competent in using 
these tools with their students. Additionally, there were other 
tools that we used in the CMST [computational math, science, 
and technology] program, such as STELLA, AgentSheets, Excel, 
and a lot of these tools are things that are so applicable to 
what students would find interesting, and still cover the types 
of mathematical and scientific content that are required in 
standards.
    In our district, as I mentioned, we are low achieving, but 
making teachers aware that these avenues are available, and 
that change is necessary, this is one of the first steps that 
we can make toward improving math and science education in our 
district.
    The CMST program, under the MSP project, has offered some 
excellent opportunities in terms of professional development. 
The Summer Institute was extremely well-staffed with 
knowledgeable professors, and a lot of us went in not knowing 
how to use a lot of the tools that were being used, and we were 
provided with very quick feedback that was extremely helpful.
    The MSP project also provides ongoing training during the 
school year, with the expectation that teachers trained are 
going to continue using the training. That is extremely 
important, because when you talk about implementing 
professional development effectively, if there is no follow-up 
to that professional development, it is rare that that change 
is going to have any kind of long-lasting effect. And so there 
are regular checkpoints along the way to make sure that 
teachers who were trained in this program are continuing to 
work in the things that they were trained in and having direct 
implementation into the classroom lessons that they are 
preparing.
    Some of the barriers that I would like to discuss, one of 
them is perhaps financial. It is not the greatest barrier, 
because I think there are--through the availability of grants 
and other types of monies, the types of tools that we use can 
be available for students. I think the greatest barrier is, 
perhaps, the lack of willingness for teachers to change their 
practice. We were discussing over lunch that many times, 
teachers feel uncomfortable in changing their practice and John 
Dewey used a term called cognitive dissonance, which mentioned 
that until people feel uncomfortable, real learning doesn't 
occur. Once they feel uncomfortable and feel the need to take 
on something, to do something about that discomfort, then 
people will pursue that and learn something from it. Teachers 
may be very, very reluctant to work in these different kinds of 
changes that we are asking them to, but in a sense, that 
discomfort is a good sign, because they realize that they need 
to do something different, so it is very important that they 
are pursuing those things.
    In terms of recruiting the best teachers, and I know I am 
getting very close to running out of time, so I want to make 
this one last point, in terms of recruiting the best possible 
teachers, we need to reach our students early and we need to 
make them lovers of mathematics and science at an early age, 
and if we can do that, the likelihood that they are going to 
pursue a career in math and science teaching I think goes up.
    [The prepared statement of Mr. Mikols follows:]

                Prepared Statement of Jeffrey M. Mikols

    I have been a teacher for the Rochester City School District since 
1993. I have a Bachelor of Arts in Mathematics and Master of Science in 
Mathematics Education from the State University of New York College at 
Geneseo. I am currently enrolled in a Certificate for Advanced Study in 
School Administration from the State University of New York College at 
Brockport. During my tenure with the Rochester City School District, I 
have had the opportunity to teach a wide range of courses from Pre-
Algebra in the seventh grade to Advanced Placement Calculus to seniors. 
I am currently the Secondary Mathematics Lead Teacher. I am responsible 
for providing professional development to mathematics specialists 
assigned to each of our secondary buildings. These building specialists 
then provide this professional development to the teachers in their 
building. Additionally, I work in classrooms with teachers modeling, 
coaching, and serving as resource to them.

Testimony

    I have had the opportunity to be a participant in the CMST Program 
at the State University of New York College at Brockport. As a 
participant in the MSP Project, I received four weeks of intensive 
training in technology, with the intent of applying this to classroom 
lesson planning. We were trained on the Texas Instruments TI-83+ 
graphing calculator, STELLA, AgentSheets, and Interactive Physics. I 
had the opportunity to apply this training to writing lesson plans that 
incorporate the use of technology. As the Secondary Mathematics Lead 
Teacher of the Rochester City School District, I have begun to train 
teachers to implement technology and promote change in the mathematics 
classroom.
    The SUNY-Brockport MSP Project has helped teachers and 
administrators by providing training in technology based approaches to 
mathematics and science lessons. Technology has made it possible to 
change the way teachers approach mathematics and science to make 
lessons that are exciting to students and relevant to their interests. 
New York State Educational Standards specifically target the use of 
technology as methods of communication and information gathering 
systems. The natural curiosity of students concerning technology has 
enabled teachers to design and carry out lessons that involve an 
inquiry approach.
    In the Rochester City School District, I have made it a priority to 
begin training building specialists on the TI-83+ graphing calculator 
so they can train the teachers in their individual buildings. We have 
trained these specialists in lessons from eighth grade curriculum up to 
eleventh grade curriculum. The earlier our students are proficient with 
graphing calculators, the more they will benefit from them as they move 
through the high school curriculum. Teachers that participated in the 
CMST Summer Program are beginning to implement training they received 
into their classroom and are producing high quality lessons. This is a 
primary step in improving math and science education in our schools.
    The professional development provided by the MSP Project has been 
different than other professional development I have received on many 
levels. The MSP Project provides teachers with direct training on 
specific methods to change mathematics and science teaching. Teachers 
were trained on the technology and then asked to reflect and implement 
what they learned in planning classroom lessons. The Summer Institute 
was well staffed with knowledgeable professors. Questions pertaining to 
the programs we were trained on were answered efficiently yet 
thoroughly. The training went very fast at times, but there was support 
available. The MSP Project provides ongoing training during the school 
year with the expectation that teachers trained are going to continue 
using the training they received throughout the school year. There are 
regular checkpoints of accountability in place to ensure that teachers 
are doing this. The participating teachers have each been assigned a 
coach to provide help where necessary. This ongoing training and 
accountability are essential for any professional development to have a 
lasting effect on the way teachers conduct their practice.
    I believe that the greatest barrier in implementing the latest and 
best research into the classroom is teachers not changing their 
practice. This failure to change practice is partially because of lack 
of training and awareness of alternative methods, but also because 
teachers do not admit the need to change is necessary. The MSP Project 
is a good model to approach this problem. It has provided teachers with 
the necessary training and subsequent support to facilitate change in 
classroom practice. As teachers implement technology into their 
lessons, and students learn more and enjoy mathematics and science 
more, it is my belief that other teachers who are reluctant to change 
their practice will take notice of the improved student outcomes and 
want to change as well. I have begun trying to implement this change in 
approach with building specialists in my district. The specialists have 
been very eager to be trained on the TI-83+ graphing calculator, so the 
potential for change at their individual buildings is a reality. I have 
seen teachers in classrooms beginning to implement graphing calculators 
into their lessons, and they are realizing the benefits of using them.
    The best way to recruit high quality mathematics and science 
teachers is to create students that love to learn these subjects. If 
high school students enjoy learning these subjects and see the 
relevance in their lives that these subjects have, there is a better 
chance that these students will consider teaching these subjects as a 
career. There must be exciting opportunities for students to experience 
technology and real life application in mathematics and science. The 
MSP Project has tremendous potential to foster this type of interest. 
Many students have a natural interest in technology and how it is 
applied. Recently, the MSP Project hosted an Interactive Physics Day 
where students from Rochester City Schools and Brighton Central schools 
received the opportunity to see how technology relates to Physics. I 
believe the MSP Project could make more inroads into the individual 
schools by presenting demonstrations for students to participate in. 
The benefits of teaching mathematics and science must be ``advertised'' 
more effectively and earlier in the students high school career. 
Teaching must be made a first choice, not a career to fall back on.

                    Biography for Jeffrey M. Mikols

    I have been a teacher for the Rochester City School District since 
1993. I have a Bachelor of Arts in Mathematics and Master of Science in 
Mathematics Education from the State University of New York College at 
Geneseo. I am currently enrolled in a Certificate for Advanced Study in 
School Administration from the State University of New York College at 
Brockport. During my tenure with the Rochester City School District, I 
have had the opportunity to teach a wide range of courses from Pre-
Algebra in the seventh grade to Advanced Placement Calculus to seniors. 
I am currently the Secondary Mathematics Lead Teacher. I am responsible 
for providing professional development to mathematics specialists 
assigned to each of our secondary buildings. These building specialists 
then provide this professional development to the teachers in their 
building. Additionally, I work in classrooms with teachers modeling, 
coaching, and serving as resource to them.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Chairman Smith. Thank you. Dr. Navarro.

STATEMENT OF M. SUSANA NAVARRO, PRINCIPAL INVESTIGATOR FOR THE 
  COMPREHENSIVE MSP GRANT AT THE UNIVERSITY OF TEXAS, EL PASO

    Dr. Navarro. Mr. Chairman, Ranking Member Johnson and 
Members of the Committee, I am pleased to be here to share with 
you the work of the NSF-funded El Paso Math and Science 
Partnership.
    Over the past decade, the NSF has been a valuable partner 
in supporting improved math and science instruction and 
achievement across the El Paso community. What the MSP now 
provides is an opportunity to bring together partners across 
our entire community, K-16, toward the shared development and 
implementation of high quality practices aimed at improving 
academic achievement among all students.
    Over the last decade, the community of El Paso has 
distinguished itself as one that is deeply committed to 
ensuring academic success among all of our youngsters. Our 
strong focus on education in El Paso reflects the reality that 
there is so much at stake in ensuring that this growing, 
largely Hispanic community is able to create opportunities for 
its more than 700,000 citizens and over 155,000 students.
    Currently, our per capita income lags behind both the State 
and the Nation, and the median household income ranks sixth 
lowest in the U.S. The overall educational attainment of our 
citizenry is low as well. Just 68 percent of the population 
aged 25 and older have earned a high school diploma and fewer 
than 16 percent of El Pasoans hold bachelors degrees or higher.
    Against these tremendous odds, the El Paso community has 
demonstrated its commitment to high academic achievement and we 
have shown that we can do it. For example, the achievement gap 
of which Member Johnson spoke of, as measured by TAAS 
mathematics, is at its lowest point since El Paso's NSF-funded 
systemic reform efforts began in 1994. From a high that year of 
21 points between Hispanic and white students and 27 points 
between African-American and white students, the gap has been 
reduced to 5.7 and 7.9 points respectively.
    In addition, enrollment in college preparatory math and 
science courses, which we consider absolutely key, has 
increased significantly over the past year, with over three 
fourths of our students, of all of our students, now enrolled 
in algebra I, geometry, algebra II, biology and chemistry. This 
is a radical shift from what occurred----
    Chairman Smith. From one of the other, or all of them?
    Dr. Navarro. All of our students, over three fourths of all 
of our students.
    Chairman Smith. I mean all of those courses, they are in 
one of those courses?
    Dr. Navarro. That is right.
    Most significantly, pass rates improved greatly over the 
past year. Notably in geometry, where 86 percent of students 
passed the course, and in chemistry, where 78 percent of 
students passed the course. These increases in enrollment and 
pass rates represent possibly the most important aspect of NSF-
supported work in El Paso schools.
    And yet, enormous challenges remain, particularly in fully 
preparing students for math and science success in college. We 
have made great strides K-12. It is ensuring that students are 
able to make that leap and be able to do well in college math 
and science. That is what we are very much focused on now.
    Shared concerns about this and other challenges have 
brought together 12 El Paso area school districts with the El 
Paso Community College and the University of Texas at El Paso 
to focus on identifying strategies for ensuring the academic 
success of all of our youngsters. We are grateful that funding 
for the El Paso MSP will allow us to address these critically 
important problems.
    The El Paso MSP is built around five key priorities. These 
include one, increasing and sustaining the quantity and quality 
of pre-K-12 math and science teachers, absolutely a burning 
issue for us. Two, building the capacity of schools and 
districts to effectively support efforts to improve math and 
science instruction and achievement. Three, aligning curriculum 
instruction and assessment of math and science to ensure that 
what is taught reflects shared expectations for students from 
kindergarten through university. Four, promoting efforts to 
increase college going rates among El Paso area students, 
because if they don't go to college, they can't get degrees in 
math and science and then go and do research and other things 
with math and science. And five, conducting research that 
advances knowledge and understanding about the systemic 
improvement of math and science instruction. Strategies 
addressing each of these priorities focus on local needs, 
though many have relevance to communities across our country, 
which we hope will benefit from the lessons that we learn in 
MSP.
    Let me quickly tell you about some of the lessons that we 
have learned in the over 13 months of implementing MSP so far. 
First, we have learned that this work absolutely must be done 
K-16, that is from kindergarten through university and beyond. 
Reforming K-12 will only work for the long-term if our teacher 
preparation programs and colleges and universities have 
themselves improved, if they, too, are focused on the best 
national content standards, if they are also aggressively 
working toward fully engaging students in the learning process. 
And given that teacher preparation encompasses the entire 
university, not just colleges of education, those that educate 
prospective teachers in the core subject areas, the colleges of 
science, the departments of mathematics, colleges of liberal 
arts, must also work toward improving teacher quality.
    A second lesson learned is that partnerships must address 
the issue of K-16 curriculum alignment. What does that mean? It 
really means seamlessly linking what is taught at each point in 
the education continuum, from elementary, middle and high 
school, with what is expected and taught at community college 
and at university. The MSP Math and Science Alignment Project 
brings together K-12 teachers of math and science, as well as 
math faculty from community college and faculty from U. Tex. 
colleges of education, engineering and science.
    A major goal of the initiative is to develop course 
outlines along with curriculum frameworks that will be 
implemented by teachers across the twelve districts. These 
outlines and frameworks provide clear and specific information 
about math and science content at each grade level that 
students must understand and be able to do, and the level of 
rigor at which they must be able to do them. This really takes 
standards to the next level, because standards are a great big 
mass of things that, while helpful, don't provide the direction 
to teachers that is needed in order for teachers to know what 
is most important, and the level at which students need to know 
that particular topic in mathematics or science. Our frameworks 
are helping to do that.
    And the final lesson learned is that we have to provide a 
full and robust set of support and assistance mechanisms 
necessary for building school capacity. We do that by working 
with teachers. We also do that by working with faculty members, 
deans, superintendents and the like, but we put our greatest 
emphasis on teachers. In my written testimony, you can see the 
kinds of things that we do with teachers, but I guess I want to 
close by just saying that what drives our work is our absolute 
belief in what students deserve, the importance of focusing on 
equity and partnerships.
    We are delighted and very thankful to have this opportunity 
to do more of the work that we have been doing and to do it at 
a level that we have not done before, so thank you very much.
    [The prepared statement of Dr. Navarro follows:]

                Prepared Statement of M. Susana Navarro

Greeting and Overview

    Mr. Chairman, Ranking Member Johnson, and Members of the Committee, 
I am pleased to be here today to share with you the work of the 
National Science Foundation-supported El Paso Math/Science Partnership 
(MSP), and the opportunities that it provides for students across El 
Paso. Over the last decade, the National Science Foundation has been a 
valuable partner in supporting improved math and science instruction 
and achievement across the El Paso community. What the MSP now provides 
is an opportunity to bring together partners across the community, K-
16, toward the shared development and implementation of high quality 
math and science content and instructional practices aimed at improving 
student achievement among all students.
    Over the last decade, the community of El Paso has distinguished 
itself as one that is deeply committed to ensuring academic success 
among all students. In fact, education has come to be seen as a key 
element in improving the quality of life in our community, which is 
working very hard to turn around life chances for its large and growing 
population. Our strong focus on education in El Paso reflects the 
reality that there is much at stake in ensuring that this growing, 
largely Hispanic community is able to create opportunities for its 
700,000 citizens. Currently, our per capita income lags behind both the 
State and the Nation, and the median household income ranks sixth 
lowest in the United States. The overall educational attainment of our 
citizenry is low as well. Just 68 percent of the population (aged 25 
and older) has earned a high school diploma and fewer than 16 percent 
of El Pasoans hold a Bachelor's degree or higher.
    Against these tremendous odds, the El Paso community has 
demonstrated its commitment to high academic achievement among all 
students. For example, the achievement gap, as measured by TAAS 
mathematics, is at its lowest point since El Paso's NSF-funded systemic 
reform efforts began in 1994. From a high that year of 21.2 percentage 
points between Hispanic and White students, and one of 26.7 points 
between African Americans and Whites, the gap has been reduced to 5.7 
and 7.9 points respectively in 2002. In addition, enrollment in college 
preparatory math and science courses has increased significantly over 
the past year, with over three-fourths of all students across the MSP 
districts now taking Algebra I, Geometry, Algebra II, Biology and 
Chemistry. Most significantly, pass rates improved greatly over the 
past year--notably in Geometry (86 percent) and Chemistry (78 percent). 
These increases in enrollment and pass rates represent possibly the 
most important impact of NSF-supported work in El Paso schools.
    And yet, enormous challenges remain, particularly in fully 
preparing students for math and science success in college. Shared 
concerns about this and other challenges has brought together 12 El 
Paso area school districts with the El Paso Community College and the 
University of Texas at El Paso to focus on identifying strategies for 
ensuring the academic success of our young people. We are grateful that 
funding for the El Paso MSP will allow us to address these critically 
important problems.

Key Components of the El Paso MSP

    The El Paso Math/Science Partnership is built around five key 
priorities identified as critical to ensuring the academic achievement 
and opportunities for future success of El Paso area students. These 
include: one, increasing and sustaining the quantity and quality of 
pre-K-12 mathematics and science teachers; two, building the capacity 
of schools and districts to effectively support efforts to improve math 
and science instruction and achievement; three, aligning curriculum, 
instruction, and assessment of math and science education to ensure 
that what is taught reflects shared expectations for students from 
kindergarten through university; four, promoting efforts to increase 
college-going rates among El Paso area students; and five, conducting 
research that advances knowledge and understanding about the systemic 
improvement of mathematics and science instruction. Strategies 
addressing each of these priorities focus on local needs, though many 
have relevance to communities across the Nation, which we hope will 
benefit from the lessons we learn in MSP.

Increasing and Sustaining the Quantity and Quality of Pre-K-12 
        Mathematics and Science Teachers
    The first key element of the El Paso MSP addresses our efforts to 
increase and improve the quantity and quality of certified math and 
science teachers across our twelve partner districts. Strategies 
include roles for partners at UTEP, EPCC, the El Paso Collaborative for 
Academic Excellence, the Region 19 Educational Service Center, as well 
as participating districts, and range from increasing the number of 
fully certified math and science teachers, to providing intensive 
professional development to in-service teachers, to encouraging high 
school students to consider careers in math and science teaching.
    Among the most notable accomplishments in the last year, are the 
enhancement of a Master of Arts in Teaching Mathematics (MATM) and the 
establishment of a Master of Arts in Teaching Science (MATS) program. 
Currently, 15 high school Mathematics teachers and 21 Science teachers 
are supported by the El Paso MSP and enrolled in courses leading to a 
Master's degree. In addition, a Pre-MAT program has been established to 
support prospective Master's participants who do not have the required 
prerequisites--most notably in college-level Calculus. Through the El 
Paso MSP, UTEP faculty have also developed a Physical Science degree 
plan for the MATS focusing on Physics and Chemistry.
    Identifying and supporting prospective teachers is also taking 
place through promotion of alternative certification for prospective 
teachers with math and science backgrounds, high school teaching magnet 
programs and the recruitment of undergraduate engineering students into 
secondary math/science teaching.
    Local concerns--that also reflect national trends--pertaining to 
support for new math and science teachers are being addressed through a 
newly established teacher induction program, into which new teachers 
have been enrolled and participate in an intensive two-year support 
program.
    Intensive support for current teachers is being provided through 
MSP-supported Staff Developers--a highly qualified cadre of math and 
science master teachers--who provide professional development, 
sustained and connected over time, in teachers' classrooms. The focus 
of the Staff Developers' work includes support for teachers in covering 
topics and activities most central to improving the quality of their 
teaching.

Building School and District Capacity

    The second key element of the El Paso MSP focuses on supporting the 
improvement of math and science instruction in pre-K-12 classrooms via 
leadership at the school and district levels, as well as support for 
increased parent engagement.
    The MSP recognizes that a factor critical to implementing and 
sustaining standards-based instruction is the ability of school 
administrators to facilitate and actively support teacher efforts for 
improving teaching and learning. Principal Academies include attention 
to results-based reform efforts, data analysis, strategic planning, and 
content-focused coaching aimed at the successful implementation of the 
K-16 math and science curriculum frameworks. In addition, regular, 
ongoing meetings are held with superintendents and other district 
leaders to ensure coherence, consistency, ownership, and support for 
all MSP goals and activities.
    Finally, the El Paso MSP recognizes the role of parents and the 
community in supporting math and science reform. Key efforts include 
monthly meetings for parent teams from area schools addressing the 
importance of high-level mathematics and science for preparation for 
higher education, and the role parents play in supporting greater 
student achievement. Parents' sessions also address State standards, 
and the rigors and demanding nature of the State assessment. 
Discussions also center on the expectations of students and 
implications of the ``No Child Left Behind'' Act. Community engagement 
through the El Paso MSP has also focused on preparation for higher 
education.

Aligning Curriculum, Instruction, and Assessment of Mathematics and 
        Science Education
    To support students in achieving higher levels of mathematical and 
scientific understanding in preparation for higher education, the El 
Paso MSP is working with mathematicians and scientists from UTEP and 
EPCC, along with pre-K-12 teachers, in developing high level 
mathematics and science curriculum course frameworks that will guide 
instruction and assessment at all levels. To date, frameworks have been 
developed in K-12 mathematics, Algebra I and Algebra II. This year, 
work is commencing with Geometry, and Chemistry and Physics.
    The institutionalization of the curriculum frameworks will be 
carried out through the development and enactment of policies 
pertaining to the implementation of the frameworks across local 
districts, EPCC and UTEP. Also critical will be the alignment and 
integration of the frameworks with instruction provided by post-
secondary educators, including math/science teacher faculty at both 
higher education institutions.
Increasing College-Going Rates
    Along with the improvement of science and mathematics education, a 
priority of MSP is to ensure that increasing numbers of El Paso area 
students recognize the importance of a post-secondary education and 
early preparation for college. The fourth key element of the El Paso 
MSP focuses on: 1) increasing college-going rates through the THINK 
COLLEGE NOW Initiative; 2) increasing attention to the work of 
counselors in supporting students' preparation for higher education; 
and, 3) implementing the College of Engineering's Infinity Project--a 
curriculum for high school students that addresses concepts and skills 
related to engineering.

Implementing a Research Agenda that Advances Knowledge and 
        Understanding about the Systemic Improvement of Mathematics and 
        Science Instruction
    The final key element in the El Paso MSP recognizes that research 
on the impact of MSP efforts informs critically important decisions 
about what works, where, and under what conditions. Priorities include 
the implementation of math/science field based research pedagogical 
laboratories, which are underway; research training for El Paso MSP 
Staff Developers and District Directors; and the awarding of small 
research grants to teachers.

Responses to Specific Questions

    How will you ensure that participants--mathematicians, scientists, 
and engineers from higher education as well as K-12 teachers and 
administrators--remain active in the program? What role, if any, will 
businesses and non-profit organizations play in the partnership?

    The involvement of El Paso MSP partners across higher education and 
pre-K-12 institutions, as well as in the business and non-profit 
community, is focused on building a long-term commitment toward shared 
goals for the students in the El Paso community. This commitment starts 
with the leadership at higher education institutions and school 
districts--many of whom play key roles in the El Paso MSP. Beyond the 
fulfillment of the priorities laid out, these leaders are focused on 
ways in which our partnership can sustain itself for the long term. The 
University of Texas at El Paso, for example, has committed to 
graduating more credentialed mathematics and science teachers and 
increasing the number of teachers holding math and science masters 
degrees. MSP districts, too, are committed to continue prioritizing and 
supporting mathematics and science education after MSP, including the 
use of district resources to support continued intensive professional 
development and acquisition of the best standards-based math and 
science materials. El Paso MSP partners, including business, community 
organizations and civic leaders, will continue to participate actively 
in promoting key MSP priorities, including making presentations to 
students, parents and community groups about the importance of math and 
science literacy and of going to college.

    What type of professional development will your partnership provide 
for pre-service and in-service teachers? How will improvements in 
teacher content knowledge and pedagogy be assessed?

    Professional development for both pre-service and in-service 
teachers will be provided to increase and sustain the quantity and 
quality of pre-K-12 mathematics and science teachers. Teachers' content 
knowledge will also be enhanced by the K-16 curriculum alignment 
frameworks that include expectations about what student should know and 
be able to do from kindergarten through higher education.
    Assessing the impact of these efforts in supporting both teacher 
content knowledge and pedagogy will occur through a combination of 
strategies. Teachers receiving a Master's of Arts in Teaching either 
Mathematics or Science will be required to have attained Master's-level 
content knowledge in order to graduate. At the same time, prospective 
teachers coming to the profession through alternative certification and 
engineering backgrounds will be expected to have mastered their content 
knowledge in order to proceed with their certification. The familiarity 
of both pre-service and in-service teachers with the rigorous content 
addressed in the frameworks, and its integration into classroom 
practices will also be measured. Classroom teacher observation 
protocols and surveys, for example, will provide a guide for formative 
evaluation of teachers' progress in implementing the content addressed 
in the frameworks.

    Is your award a sufficient size to develop and test your education 
reform models and achieve your partnership goals? How will the 
partnership coordinate with State educational agencies to foster and 
sustain the reform effort after the award period expires?

    The support we have received from the National Science Foundation 
has been extremely beneficial in allowing us to develop and refine our 
reform models from which longer-term implementation and sustainability 
can be built. This work is an enormously costly proposition. Over the 
past 20 years, we have seen first-hand that making the transformations 
expected through the partnership are expensive and take significant 
time. What has been so valuable is the significant NSF investment in 
promoting the value of our pre-K-16 partnerships and those in other 
communities. This leadership and attention to our work has also allowed 
the El Paso MSP to more effectively leverage resources from our own 
community.
    Though we do not directly coordinate our efforts with the Texas 
Educational Agency, we continue to share products and lessons from the 
work of the El Paso MSP. One key example, will be the broader 
dissemination of the mathematics and science curriculum frameworks, 
which have applicability across every school in the State.

Plans for Evaluation of the El Paso Math/Science Partnership

    As you can see, the El Paso MSP is an ambitious initiative with 
multiple and interrelated components. Thus to evaluate it, we must 
monitor the implementation and results of many strands of activity 
within a clear, overarching framework. Our evaluation has two key aims: 
accountability through the rigorous measurement of results; and ongoing 
improvement in our programs.
    We believe in holding ourselves accountable for measuring change in 
the lives of young people. We have begun with the identification of key 
objectives and benchmarks for which indicators have been developed to 
measure the major outcomes of the Partnership. Examples include trends 
regarding the percent of area students passing the mathematics and 
science portions of the Texas Assessment of Knowledge and Skills, and 
the percent of students completing a college-preparatory high school 
program. We use student data to identify the overall results of our 
efforts and to highlight areas in which more work is needed. Looking at 
student achievement and attainment over time is an indispensable part 
of our work, and we appreciate federal support for the collection and 
rigorous analysis of student data.
    In order to enhance our program we utilize evaluation planning, 
data collection and reporting that include the systematic monitoring of 
interrelated program improvements intended to contribute to success on 
each outcome indicator. We examine the extent to which we are achieving 
our numerical benchmarks and track backwards to examine interim steps 
and program interventions that influenced their outcomes.
    Because we are committed to improving the programs that our 
partnership has launched in El Paso, we need to gather and 
systematically analyze evidence about those programs in our own 
context. We welcome this nation's growing commitment to supporting 
experimental research in education, while recognizing that full-blown 
experimental trials cannot provide all the answers that our MSP 
partnership needs. We have programs in place right now that have 
achieved varying degrees of success which we need to understand in 
detail. While we await better answers from the education research 
community, we are working with an external evaluator to conduct 
comparisons and analyses, on the ground, in our own classrooms.
    The program elements of the El Paso MSP are intended to make a 
difference in the supply of well-qualified math and science teachers, 
in school and district leadership, in classroom practices, and 
ultimately in student achievement. Our evaluation plan takes into 
account that all partners have roles to play, and multiple new and 
established programs to support. Thus, our evaluation plan will focus 
attention on the following: the implementation of key program elements 
across participating districts, schools, and post-secondary 
departments; the short-term results of implementation; and how the 
presence or absence of particular program elements contributes to 
longer-term results.
    For example, we will analyze enrollment and completion statistics 
in a college-preparatory core curriculum, by district, feeder pattern, 
and student group. Where students are not completing this curriculum at 
the desired rate, we will identify the courses they are not completing 
and the program interventions in those subjects that they have or have 
not experienced. We will also analyze relevant data on school 
leadership, counseling, and classroom practices affecting those 
students. These comparative analyses of different conditions and 
supports across schools will point the way to improvement in our 
efforts.
    Similarly, we will look at the rates at which prospective teachers 
are entering and completing each of the pathways to certification 
introduced or enhanced through support from the El Paso MSP. Profiles 
of typical enrollees in each pathway will be compared. Through surveys 
of participants (and non-participants, such as engineering students who 
do not choose to enter teaching), we will identify reasons for entry 
and persistence in these certification routes.
    Staff Developers' work will be analyzed from several related 
perspectives. Teachers and Lead Learners will provide data on the kinds 
of support they receive from Staff Developers. Through classroom 
observation, we will follow-up to measure the results of this support 
infrastructure. The work of Staff Developers will also be examined as 
one component in a more comprehensive system of teacher induction and 
support that may help in teacher retention as well as the improvement 
of classroom practice. We will identify facilitating mechanisms and 
barriers to effective staff development that may exist in district and 
State policies, principals' actions, teachers' schedules, and the 
learning opportunities available to the Staff Developers themselves.
    The evaluation questions about alignment will also be addressed 
through measures of the enacted curriculum. In addition, we will look 
at progress in curriculum alignment all the way from elementary through 
post-secondary education.
    The research component of the El Paso MSP will be a subject of our 
evaluation in its own right, as a significant intervention intended to 
engage classroom teachers, post-secondary faculty, and others in 
systematic reflection on practice and results. We will study the 
operations of such key elements as the collaborative working 
relationships between post-secondary faculty and pre-K-12 teachers, 
which have traditionally proved difficult to establish. We will also 
incorporate the results of teacher research into our inquiry.
    In summary, by tracking back from key benchmark indicators to the 
specific mechanisms intended to affect them, by understanding instances 
of success and failure and by taking into account the mutually 
reinforcing nature of related program efforts, we expect to generate 
reports that are realistic, useful, and analytically sound. Evaluation 
is helping us hold ourselves accountable for results, and it is helping 
us strengthen our programs as we go forward.

Lessons Learned

    Let me share with you some of the lessons we have already learned 
over the 13 months of implementing MSP. First, we have learned that 
this work must be undertaken K-16. Reforming K-12 will only work for 
the long-term if our teacher preparation programs in colleges and 
universities have themselves improved, if they too are focused on the 
best national content standards, if they are also aggressively working 
toward fully engaging students in the learning process. And, given that 
teacher preparation encompasses the entire University, not just 
Colleges of Education, those that educate prospective teachers in the 
core subject areas--the Colleges of Science and Liberal Arts--must also 
work toward improving teacher quality.
    A second lesson learned is that partnerships must address the issue 
of K-16 curriculum alignment, that is, seamlessly linking what is 
taught at each point in the education continuum--from elementary, 
middle and high school--with what is expected and taught at community 
college and at university. The MSP Mathematics and Science Alignment 
brings together K-12 teachers from all MSP school districts, MSP staff 
developers, as well as mathematics faculty from the El Paso Community 
College, and faculty from UTEP's Colleges of Education, Engineering and 
Science. A major goal of the initiative is to develop course outlines 
along with curriculum frameworks, that will be implemented by teachers 
across the twelve districts. Those outlines and frameworks provide 
clear and specific information about math and science content at each 
grade level that all students must understand and be able to do and the 
level of rigor demand at which they must be able to do them in order to 
prepare for college level mathematics and science. The outline is 
mapped to textbooks and materials used by the districts and is not 
limited to any one adopted mathematics program. We have completed work 
on Algebra I and II, as well as K-8 and are beginning work on Geometry, 
K-8 science and the high school science courses.
    A third lesson learned is that we must ensure a full and robust set 
of support and assistance mechanisms necessary for building school 
capacity. Our professional development work is focused on building 
knowledge and leadership about school improvement and institutional 
change among principals and other site administrators, district 
leaders, college and university faculty and deans. We have, however, 
prioritized teachers and making sure that all who teach math and 
science are fully qualified. MSP is helping to do that through 
increasing the number of teachers certified and earning masters in math 
and science. In addition, we also provide professional development to 
ensure a deep understanding of concepts, among in-service teachers to 
the point where they can build student capacity to do high level math 
and science. We not only focus on content but also on pedagogical 
content. That is, implementation of instructional practices appropriate 
to specific math and science concepts. This deepening of knowledge and 
practice requires a reorganization of where and how we deliver 
professional development. The majority of that development is now 
provided in classrooms by MSP staff developers, thus bridging the 
teacher learning and practice gap. Through all of this professional 
development work, we continue to raise issues of teacher and 
administrator beliefs and attitudes about who can learn--and who 
cannot--and support educators to begin to come to terms with their 
beliefs and the impact of those beliefs on their students' achievement.

Conclusion

    Woven throughout this brief picture of our MSP work I trust that 
you've been able to see the elements that are critical to us:

        <bullet> Equity

        <bullet> Partnerships--in particularly K-16 partnerships

        <bullet> Deep commitments and understanding about what all 
        children deserve.

    This is work very much in progress. We've had our share of things 
that have worked very well--and those that haven't. Through it all we 
remain committed to continuing to learn what it takes to bring about 
real and lasting improvements for every single student in our 
community.
    Thank you Mr. Chairman for this opportunity to testify, and for 
your interest in the El Paso Math/Science Partnership. I would be happy 
to respond to any questions.

                    Biography for M. Susana Navarro

    Susana Navarro graduated from the University of Texas at El Paso 
with a major in political science in 1968. After working at the U.S. 
Commission on Civil Rights in Washington on a landmark study of Mexican 
American education, she began her graduate studies at Stanford 
University, where she received her Ph.D. in educational psychology in 
1980.
    After earning her doctorate, she worked with the Mexican American 
Legal Defense and Education Fund (MALDEF) for five years as National 
Director of Research and Policy Analysis. From 1985 until early 1991, 
she worked with the Achievement Council, a statewide non-profit 
organization in California, which she helped create, as Associate then 
Executive Director.
    In 1991, she returned to El Paso, where with regional education, 
business and civic leaders, she founded the El Paso Collaborative for 
Academic Excellence, an organization which she has headed since its 
inception. The Collaborative, a city-wide effort to improve academic 
achievement among all young El Pasoans, is now in its twelfth year of 
operation and has become a national model for urban school reform. Dr. 
Navarro's work has been featured in numerous national publications, 
including Education Week, The Chronicle of Higher Education and Phi 
Delta Kappan. She serves as Principal Investigator for the El Paso 
Mathematics and Science Partnership, a $30 million grant, which was 
awarded to the Collaborative in 2002. In addition to MSP and other 
grants from the National Science Foundation, the Collaborative has 
received support for its systemic reform work from the Pew Charitable 
Trusts, the U.S. Department of Education, the Lucent Foundation, Exxon 
and the Coca Cola Foundation, among others.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Smith. Thank you. Dr. Ferrini-Mundy.

STATEMENT OF DR. JOAN FERRINI-MUNDY, PRINCIPAL INVESTIGATOR FOR 
    THE COMPREHENSIVE MSP GRANT AT MICHIGAN STATE UNIVERSITY

    Dr. Ferrini-Mundy. Good afternoon, Chairman Smith and 
Members of the Subcommittee. It is a pleasure to appear here 
before the Subcommittee and provide testimony on the Math 
Science Partnership Program, and in our particular case, the 
project PROM/SE, which is currently at its very early stages of 
implementation at Michigan State University, in collaboration 
with our five partner consortia.
    I am the co-leader of PROM/SE with my colleague at Michigan 
State, Dr. William Schmidt, who had a lead role in TIMSS, the 
Third International Mathematics and Science Study. This effort 
has just been launched in the past month. We are grateful to 
the National Science Foundation for this opportunity to have a 
major impact on mathematics and science learning, and frankly, 
we are daunted by the enormity of the task.
    PROM/SE is a comprehensive research and development effort 
to improve mathematics and science teaching and learning in 
grades K-12. It is based on assessment of students and 
teachers, improvement of standards and frameworks, and the 
preparation and professional development of teachers.
    I emphasize that our partnership is a research and 
development effort. We are committed to understanding through 
this work how the multiple models for improving teaching and 
learning that we will build within PROM/SE actually will impact 
student learning in a range of ethnic, cultural, racial and 
economic settings that are so diverse that they mirror the 
diversity of the Nation.
    PROM/SE is a partnership among six entities. Five of these 
are K-12 consortia of school districts in Michigan and Ohio, 
together with Michigan State University. The project is large 
in scope. We intend to impact nearly 400,000 students through 
work with hundreds of teachers across nearly 70 school 
districts.
    The goals are straightforward. First, we intend to use 
empirical evidence as a basis for our efforts to improve 
mathematics and science learning. We will assess students in 
grades three through twelve using TIMSS-like instruments and 
other instruments that are being designed currently, and we 
will survey teachers and administrators about their 
instruction, about their contexts and about their curricula.
    Secondly, we will work with our partners to develop and to 
agree upon challenging content standards that will work to 
align instruction and assessment in those local districts with 
these standards. Mathematicians, scientists, school leaders, 
all together will work to accomplish this design of standards 
and action teams that bring together people from higher 
education and from the K-12 partners.
    Third, we are interested in designing professional 
development that helps all teachers have the capacity to teach 
to these high standards, and that emphasizes subject matter 
knowledge in ways that support teachers in their daily work in 
classrooms. The professional development involves a model of 
building level associations, called PROM/SE associates, as well 
as the technologically-based resource system that will be 
designed, again, by our mathematicians, scientists and 
educators.
    Fourth, at Michigan State University, we are engaged in 
rethinking the ways in which future teachers are prepared to 
teach, to high standards in mathematics and science, and the 
MSP part of that work will be particularly focused in science.
    Fifth, and ultimately, we are aiming to improve students' 
learning and achievement across our districts, across our 
partner sites and across the diversity that our project 
encompasses.
    In the TIMSS study, analysis of the curriculum standards in 
the high-achieving countries showed that those standards were 
mathematically and scientifically coherent. These tables 
indicate down along the rows, essentially, a progression of 
subject matter, from more straightforward, fundamental concepts 
to more advanced concepts, and the columns suggest in which 
grades these topics are typically treated across the high-
achieving countries, and you see, basically, this pattern of a 
focus on depth, on central ideas, on beginning and ending ideas 
across a relatively small grade span, and then moving on to 
more sophisticated ideas.
    In PROM/SE, we will work on standards and frameworks that 
emphasize significant ideas in mathematics and science and that 
convey high expectations for all students, and that are well-
articulated across the grades. TIMSS also provides the kind of 
analytic tools that we will use as a starting point for our 
decision-making and for gathering evidence.
    Let me say more about what I mean by that. This table, or 
this diagram, shows down in the lower right-hand corner the 
results of student performance on an item about seesaws and 
fulcrums. The graph on the left, and that student achievement 
spans grades three through twelve, and you see an upward trend, 
in the graph to the left, you see that achievement trend again, 
and above it, in the line graph, you see how much time is 
devoted to the teaching of this topic across the grades three 
through eight. You can imagine that as we put together sets of 
items and take these sorts of measurements, and take a look at 
what is going on in our partner districts, we will be able to 
tell lots of stories, in particular about what is happening 
within areas of the content, and these analyses will provide us 
with the basis for our work in PROM/SE.
    The professional development efforts in the projects will 
use this evidence. Structurally, the model rests, in part, on 
our work with PROM/SE associates. These will be teachers who 
represent schools across the partnership and will serve as 
resources, coaches and math science experts for their 
colleagues. We will build technological resources that these 
teachers can access at all levels.
    Very briefly, because we are just beginning, the five-year 
project begins with assessment and identification of the 
associates, continues with data analysis standards revision and 
professional development. PROM/SE provides a number of 
opportunities as well as challenges. Let me discuss them. 
First, despite the scale of the project, our approach, with 
this emphasis on data and evidence, we hope will allow us to 
customize the PROM/SE activities to local needs. Districts will 
be able to select the areas of mathematics and science content 
that they feel need special attention and work together with 
the PROM/SE team to focus on those areas.
    It is our hope that the professional development we provide 
will be layered in ways that enables teachers with differing 
needs to access it in individual ways. For example, more 
seasoned teachers who are looking to refresh their subject 
matter knowledge will need to be able to access this material 
in one way. Newer teachers who are looking for interesting 
lesson ideas and ways to support their day to day practice may 
need to access it in a different way, and we are hopeful that 
we will be able to produce materials and compile materials that 
allow all of these sorts of options.
    We are already learning that an initiative such as PROM/SE 
involves building new ways of communicating among 
mathematicians, scientists, educators, classroom teachers and 
school administrators. This is about building new communities 
with strong communication channeled through them.
    We will be producing standards that we hope can serve as 
national models, and finally, I reiterate that we are strongly 
committed to research, to learning about how change and 
improvement can be effected and sharing what we learn 
nationally through this project.
    Thank you.
    [The prepared statement of Dr. Ferrini-Mundy follows:]

                Prepared Statement of Joan Ferrini-Mundy

    Good afternoon Chairman Smith, Ranking Member Johnson and Members 
of the Subcommittee: It is a pleasure to appear before the Subcommittee 
and provide testimony on the Math and Science Partnership Project--
PROM/SE--presently at the early stage of implementation at Michigan 
State University. Michigan State University and its five K-12 
partners--St. Clair County, Ingham County, and Calhoun County 
Intermediate School Districts in Michigan, and the High AIMS and SMART 
consortia in Ohio--have joined in Project PROM/SE (Promoting Rigorous 
Outcomes in Mathematics and Science Education), and on September 26, 
2003 were notified that their $35,000,000 Math Science Partnership 
project would be funded by the National Science Foundation. At Michigan 
State University, Dr. William Schmidt and I are the co-leaders of this 
effort.

Partnership goals

    PROM/SE has four goals:

        <bullet> Gather empirical evidence as a basis for revising 
        content standards, aligning instructional materials with those 
        standards, and monitoring student learning.

        <bullet> Improve mathematics and science opportunities for all 
        students, especially those from under-represented and 
        disadvantaged groups by developing more coherent, focused and 
        challenging content standards; aligning standards with 
        instructional materials; and eliminating tracking in grades K-
        8.

        <bullet> Improve mathematics and science teaching so it is 
        aligned with standards, through subject specific professional 
        development.

        <bullet> Reform the preparation of future teachers so that 
        teachers at all levels are ready to teach challenging 
        mathematics and science to diverse student populations.

    Our theory of how to improve achievement for all children is 
simple: we need to understand what students know, what standards 
expect, and what teachers teach, and work to improve all three. At the 
outset, students in grades 3-12 across the partner sites will be 
assessed in mathematics and science, using items from the Third 
International Mathematics and Science Study (TIMSS), as well as other 
instruments. Teachers will be surveyed about background, knowledge, 
preparation, and topics that they teach, and districts will be surveyed 
about their standards, instructional materials, and professional 
development. On the basis of data, we will review and revise standards, 
analyze alignment of standards with curriculum and teaching practice, 
and provide professional development for teacher leaders, teacher 
participants, and guidance counselors. Related reform in the MSU 
teacher education program will be undertaken during this same five-year 
period together through Teachers for a New Era, a project funded by the 
Carnegie Corporation.

Lessons learned to date

    Although our MSP funding has only recently been announced, this 
group of partners has been working together to design and envision our 
effort for more than two years. In particular, the partners share a 
commitment to the use of data and evidence as key tools in the revision 
and strengthening of standards and the design and implementation of 
professional development of teachers so that teachers will be well 
equipped to teach to high standards. The ultimate goal is improved 
learning and achievement in mathematics and science for all students.
    We are learning that it is crucial to build on the infrastructures 
that exist in each of these distinct K-12 partners, including the 
professional development efforts already underway through local 
resources in all of these areas, and the grade-by-grade standards that 
are being developed in States to address No Child Left Behind. For 
instance, MSU has collaborated extensively with our partner in the St. 
Clair ISD through a project called Promoting Results in Science and 
Math (PRISM). Initiated in 2000, PRISM is a multi-year collaboration 
between the ISD and MSU to evaluate and improve the quality of the 
curriculum and teaching for all students. The first phase involved a 
thorough analysis of the curriculum. TIMSS assessments were 
administered in May 2001 to about 17,000 students in grades 3-12. Using 
these data, St. Clair ISD began in the fall of 2002 the design and 
implementation of a reformed curriculum and of a customized 
professional development approach based on the data. St. Clair's 
experience serves as a showcase for the partnership's evidence-based 
approach.
    Our extensive baseline data-gathering will ensure that we can 
tailor our program to the unique needs and circumstances of our 69 
participating school districts. Each will have access to the results of 
students' performance and analysis of standards and teacher practice, 
so that it will be possible to build on a base of knowledge that serves 
as the foundation for continued improvement.
    We also are learning that the enormous challenges of communication 
and relationship building are central in a project of this magnitude. 
Engaging school personnel in decision-making and implementation of 
project ideas from the outset, helping stake-holders within the school 
communities come to understand and develop commitment to the premises 
of PROM/SE, and enabling the project working groups to build new 
cultures and norms that span mathematics, science, education, and the 
world of the K-12 schools, are crucial to the success of PROM/SE.

Ensuring that participants remain active in the program

    In addition to the hundreds of teachers and school leaders who will 
have direct roles in the program, and the thousands of teachers who 
will benefit from the professional development resources that will be 
designed, more than 50 Michigan State University scientists, 
mathematicians, and education faculty have agreed to participate in 
various roles in the project. They will be able to be part of the 
assessment design and analysis, the design and implementation of the 
professional development, and the revision and analysis of standards. 
Two of the MSU co-PIs, Dr. Peter Bates (Chair of the Department of 
Mathematics) and Dr. George Leroi (Dean of the College of Natural 
Science) are well positioned to promote and reward the engagement of 
MSU faculty.
    The design of the project relies on sustained participation of 
personnel in the K-12 sites, including Site Coordinators and PROM/SE 
Associates, who will work closely with MSU faculty in all aspects of 
the project. We anticipate that PROM/SE will generate new 
collaborations and relationships among groups that have not 
traditionally engaged together in work of this type. Such 
collaborations are likely to lead to new project and spin-off efforts 
during the five years of PROM/SE, and, we hope, in the post-PROM/SE 
years as well.

Tailoring PROM/SE to the unique needs of the participating school 
                    districts

    With its emphasis on evidence-based improvement, PROM/SE is 
designed to be responsive to the particular and unique needs of the 
participating partners. We anticipate finding certain areas of 
mathematics and science that are strong in some sites, and that need 
improvement in others, and will build a comprehensive professional 
development system that allows these sites to access the key areas in 
which they wish to focus. In addition, because we will be examining 
local standards in use in the districts, together with data about 
teachers' instruction, we will have a baseline for articulating the 
different emphases and instructional priorities across the partner 
sites. We will build accordingly on these differences in all project 
efforts.
    Because our five K-12 partners span a range of socioeconomic and 
contextual situations, we also stand to learn a great deal about the 
ways in which this variation interacts with efforts to improve 
standards and instructional practice. This requires acknowledging and 
understanding the differences among the participating districts.

Professional development for pre-service and in-service teachers

    Richard Elmore describes the challenges that today's accountability 
climate creates for teachers in schools: teachers, administrators, and 
guidance counselors are being asked to ``do something new--engage in 
systematic, continuous improvement in the quality of the educational 
experience of students and to subject themselves to the discipline of 
measuring their success by the metric of students' academic 
performance'' (Elmore, 2002, p. 3). He goes on to assert that few 
people in K-12 schools are prepared, either through their education or 
previous experience, to do this. Indeed, our approach in PROM/SE is to 
help teachers build and use tools, based on evidence, that will help 
them in this new climate, and to model how this might be achieved 
nationally. The PROM/SE professional development (PD) model will have 
as a unique resource the detailed evidence base that allows us to build 
on information about student achievement, teachers' understanding of 
the subject matter, the nature of district standards and their 
alignment with instructional materials. Teachers need to know where 
students have difficulty, what kinds of difficulties they have, and how 
to help them overcome them, while moving toward significant content 
goals in mathematics and science.
    Elmore makes the interesting point that ``if most of what teachers 
learn about practice they learn from their own practice, it is 
imperative to make the conditions and context of that practice 
supportive of high and cumulative levels of achievement for all 
students'' (Elmore, 2002, p. 19). This has implications for where, 
when, and how professional development occurs; it needs to be 
physically close to where the teaching occurs; it needs to happen while 
teachers are teaching; and the curriculum of professional development 
needs to be based on the content and challenges that arise for teachers 
in classrooms. Our model involves a combination of summer experiences 
and academic year offerings, as well as virtual professional 
development. By involving principals and counselors, as well as 
district leaders, we are addressing context and conditions. Our 
strategy combines a teacher-leader (coaching) model with a technology-
based PD curriculum.
    Because the students we are trying to impact are located in all of 
the more than 700 school buildings that our partnership encompasses and 
because we wish to leave no child behind, we are committed in our PD to 
``leaving no building behind.'' This means identifying a resource 
person for mathematics and for science (the same person for elementary 
schools) in each school together with the principal and in the case of 
secondary schools, a counselor as well. The role of PROM/SE Associates 
will be to understand the data, the way that the data can be used to 
drive improvement, and the notion of tying instruction and 
instructional materials to challenging and coherent standards. And, it 
will be teams of PROM/SE Associates, working with MSU personnel and 
other district leaders, who actually do the revision of the district 
and partner standards--an important element for their own professional 
development.
    The professional development for the Associates will occur during 
summer institutes, weekend workshops in the academic year, and 
virtually through on-line offerings. The first summer institutes will 
focus on the revision of standards on the basis of information about 
student achievement, teacher characteristics, and district context. 
Associates will also have opportunities to learn about leadership, 
coaching, and working with their peers to improve mathematics and 
science teaching. Associates will be prepared to work locally in their 
districts on the standards revision process, on using student data, and 
on helping teachers work with a wide array of instructional practices 
and materials to align them with local standards. The Associates will 
begin their work with the larger group of Teacher Participants in 
partner-site based weekend workshops and in summer institutes. 
Associates will be involved in providing site-based, ongoing PD for 
teachers in their districts in the ensuing academic years.
    Through the PROM/SE Associates and the MSU-based PROM/SE staff, we 
ultimately plan to provide PD directly for about 25 percent of the 
teachers of mathematics and science in our partner sites; these 4500 
teachers will have opportunities to come to summer institutes and 
academic year workshops sponsored through the project, and to work 
directly with the District Associates in their buildings. The remaining 
12,500 teachers of mathematics and science in the partner sites also 
will benefit from the activity of PROM/SE; the data and evidence to be 
gathered in each partner site will be widely available, and the revised 
content standards will be a resource for all teachers.
    Research indicates that professional development should be focused 
on a well-articulated mission, aimed at improving student learning, 
content driven, derived from analysis of student learning of specific 
content in a specific setting, based on instructional materials that 
the teachers are using, and connected with the specific issues of 
instruction and student learning in the context of actual classrooms 
(see, for example, Ball, 1997; Cohen & Hill, 2000; Elmore, 2002, p.7; 
Loucks-Horsley et al., 1998). The PROM/SE PD model will incorporate all 
of these views, and will have as a unique resource the detailed 
evidence base that allows us to build on information about students' 
learning and teachers' understanding of the subject matter. We regard 
the ongoing professional development of teachers in the partner sites 
as the most crucial intervention of our PROM/SE activity. Our 
professional development has three main goals. We will enable teachers 
to:

        <bullet> use evidence about student learning to influence 
        their teaching practice

        <bullet> use coherent and rigorous content standards as a 
        guide to providing all children with opportunities to learn 
        challenging mathematics and science

        <bullet> employ instructional practices and materials in ways 
        that align with those standards

    At this time we envision these professional development activities 
to be organized topically and to span the K-12 spectrum. Mathematics 
and science topics will ultimately be determined by what we learn from 
the data-gathering phase, but we can predict some areas at this time: 
functions; rational numbers and proportional reasoning; and data and 
statistics, for example, in mathematics, and properties and changes of 
matter, structure and functions of living systems, and structure of 
earth systems in science. In our planning discussions, the K-12 partner 
sites have expressed a number of needs for their teachers, which 
include: ``how to help teachers develop and implement more rigorous and 
coherent curriculum'' (St. Clair County), ``how to build capacity for 
coaching and building-level support'' (Ingham), ``getting a handle on 
data collection and how to use data'' (High AIMS), and ``doing gap 
analysis, and delivering the content effectively'' (Calhoun). The 
partners express a sense that teachers' subject matter knowledge for 
different areas of the curriculum is uneven, and are concerned that 
teachers who seem to ``have the content'' are still unable to ``deliver 
the curriculum.''
    After teachers have participated in summer institutes and project 
workshops, the project will also provide academic year connection to 
PROM/SE virtually, through a variety of on-line professional 
development resources for teachers, designed in a virtual PROM/SE 
Professional Development System. The idea is to establish--beginning 
with the initial assessment--a culture of collaborative learning, goal-
setting and lesson planning, implementation, assessment and evaluation 
similar to that observed in Japan (Jacobs et al., 1997; Stigler & 
Hiebert, 1999). We envision using technology both as a repository for 
resources designed especially for this project, as well as material 
selected and embedded into our project context. For example, video-
conferencing may make possible the sharing of progress, ranging from 
full district reports on particular innovations, to crafted lessons by 
a particular group of teachers in a given school. We will examine 
various platforms, as possible tools to help teachers ``make their 
teaching visible'' by creating their own video library of their 
practice and by developing their capacity to interact with these 
videos. PROM/SE Associates will be prepared to help teachers in their 
districts videotape lessons in the focal topic areas for site-based or 
on-line professional development discussions and will encourage the 
sharing of these videos within schools as well as across schools within 
and beyond their district. We will promote the use of monitored chat 
rooms as well. We will also expand and adapt a set of on-line courses 
already successfully implemented at MSU to facilitate professional 
development as part of the Virtual PD; these courses eventually will 
become part of a set of master's offerings for in-service teachers 
interested in refreshing their mathematics and science content 
knowledge.

Assessing improvements in teacher content knowledge and pedagogy

    Beginning with the baseline assessment activities, we will be 
designing and using new tools for examining teaching knowledge and 
practice. Over the course of the project we plan to design special 
studies in selected areas to look more deeply at the relationship of 
teacher content knowledge and pedagogical content knowledge as it 
relates to student achievement and to classroom practice. This 
collection of coordinated research studies will allow us to gain a 
deeper understanding of these complex relationships. These studies will 
be designed in consultation with our National Advisors and with the 
project evaluator.

Coordination with State agencies

    MSU faculty in the PROM/SE team have been deeply involved in 
efforts to revise the Michigan Department of Education Mathematics 
Standards, and thus have current connections with key State officials 
involved in assessment and standards. In addition, personnel from the 
Michigan and Ohio Departments of Education will be invited to serve as 
members of the project advisory boards and action teams. We will pay 
particular attention to the maintenance and growth of these 
relationships over time so that State personnel come to know the 
capacity that will be generated through PROM/SE, in terms of school and 
university faculty who can become engaged in State efforts in 
mathematics and science education.

Sufficient resources to develop and test our models

    We have found that, with the announcement of PROM/SE, a number of 
districts are inquiring about joining the project--and the PROM/SE 
Executive Management Team is developing policies and guidelines for the 
addition of new partners, with the notion that new partners will need 
to bring their own resources to this effort.
    PROM/SE is an ambitious project of enormous scope and complexity. 
The project team holds as a high priority the idea that we will conduct 
research around the activities of PROM/SE, so that this effort can 
provide us with models and understandings of how improvements of this 
type can be implemented in a range of contexts. We believe the 
resources are indeed sufficient for the implementation that is planned 
in PROM/SE, but to conduct the kind of research and evaluation that can 
truly help us learn from this project and others like it will require 
additional resources.

Conclusion

    The Math Science Partnership Program provides an exciting 
opportunity for significant improvement of mathematics and science 
teaching and learning across educational levels beginning in the 
earliest grades and through the undergraduate years. The improvement 
toward which all of us in the MSP Programs strive should not be the 
sole measure of the success of this substantial investment. In 
addition, we need, as educators and citizens, to learn from the MSP 
program about the ways in which models, embedded experiments and 
innovations, and particular implementations of different theories of 
action all interact with these improvement efforts. Resources and 
capacity for building strong research agendas around the MSP programs 
would seem to be essential to ensure a lasting and sustained benefit 
from this important set of initiatives.

REFERENCES

Ball, D. L. (1997). Developing mathematics reform: What don't we know 
        about teacher learning--but would make good working hypotheses. 
        In S.N. Friel & G.S. Bright (Eds.), Reflecting on our work: NSF 
        Teacher Enhancement in K-6 Mathematics (pp. 77-110). Lanham, 
        MD: University Press of America.
Cohen, D.K., & Hill, H.C. (2000). Instructional policy and classroom 
        performance: The mathematics reform in California. Teachers 
        College Record, 102(2), 294-343.
Elmore, R.F. (2002). Bridging the gap between standards and 
        achievement. Albert Shanker Institute.
Loucks-Horsley, S., Hewson, P.W., Love, N., & Stiles, K.E. (1998). 
        Designing professional development for teachers of science and 
        mathematics. Thousand Oaks, CA: Corwin Press, Inc.
Price, J. & Jacobs, J.E. (1997). Teaching, Learning, and Learning 
        Teaching: The Exxon/Cal Poly Conference on the Preparation and 
        Professional Development of Mathematics Teachers. Reston VA: 
        NCTM.
Stigler, J.W. & Hiebert, J. (1999). The teaching gap: Best ideas from 
        the world's teachers for improving education in the classroom. 
        New York: The Free Press.

        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
                    Biography for Joan Ferrini-Mundy

    Dr. Joan Ferrini-Mundy is Associate Dean for Science and 
Mathematics Education in the College of Natural Science at Michigan 
State University, where she is also a Professor of Mathematics and 
Teacher Education. Dr. Ferrini-Mundy has worked in mathematics teacher 
education since 1982 when she co-founded the SummerMath for Teachers 
Program at Mount Holyoke College. Since that time she has been the 
principal investigator of several State, federal, and foundation grants 
in research and teacher education, both at the University of New 
Hampshire, where she was on the Mathematics Faculty for 16 years and 
directed the Master of Science for Teachers Program, and at MSU. 
Ferrini-Mundy served as a Visiting Scientist in NSF's Teacher 
Enhancement Program (1989-91), and as Director of the Mathematical 
Sciences Education Board at the National Research Council (1995-1999). 
She received the Louise Hay Award for Contributions to Mathematics 
Education from the Association for Women in Mathematics in 1999, and 
won awards for teaching and for public service at UNH, as well as the 
Balomenos Award from the New Hampshire Council of Teachers of 
Mathematics. Ferrini-Mundy has been active in the National Council of 
Teachers of Mathematics (e.g., Chair of the Writing Group for 
Principles and Standards for School Mathematics, member of the Board of 
Directors, Chair of the Standards Impact Research Group), the American 
Mathematical Society, and the Mathematical Association of America.
    Currently, Ferrini-Mundy serves as co-PI of the MSU Teachers for A 
New Era Initiative, a reform of the MSU Teacher Education Program, 
funded by the Carnegie Corporation of New York and partner foundations. 
Ferrini-Mundy also directs an NSF-funded research project, ``A Study of 
the Algebra Knowledge for Teaching'' and is a Co-director of the NSF-
funded ``Study of the Development of Leaders in Mathematics and Science 
Education.'' With Dr. William Schmidt, she serves as co-leader of the 
recently awarded NSF Math and Science Partnership project ``Promoting 
Rigorous Outcomes in Science and Mathematics Education'' (PROM/SE). She 
served on the Mathematical Sciences Education Board RAND Mathematics 
Study Panel (2000-2002), the NAEP Mathematics Assessment Framework 
Committee (2002), the ACHIEVE Mathematics Advisory Panel (1999-2002), 
the TIMSS 2003 Expert Panel (2002-2003), and the NSF EHR Mathematics 
Education Portfolio Review Expert Panel (2003-present). Ferrini-Mundy's 
publications include edited books, textbooks, chapters, and papers. She 
is a frequent presenter at national and international meetings, and 
participates as an advisor to several mathematics and science education 
projects and initiatives across the Nation. Her research interests span 
calculus teaching and learning, the development of teachers' 
mathematical knowledge for teaching, and K-12 mathematics education 
reform.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               Discussion

    Chairman Smith. Thank you. I am going to start with you, 
Dr. Ferrini-Mundy. What do you mean by improving math and 
science learning? What does that mean?
    Dr. Ferrini-Mundy. At a surface level, it means seeing 
achievement scores go up, and we are----
    Chairman Smith. Whose--so----
    Dr. Ferrini-Mundy [continuing]. Absolutely committed to 
that. The students, K-12 students.
    Chairman Smith. Quality or quantity, how do you balance 
quality and quantity?
    Dr. Ferrini-Mundy. I think we have to aim for both. We want 
all students to show gains. We also want them to be learning 
significant mathematics, important math and science skills, as 
well as concepts, and so a big piece of our emphasis will be on 
meeting and understanding. We want these students to be able to 
use their mathematics and science, to apply it, to move to the 
next level with understanding. And so a lot of this involves 
designing assessments and working with assessments that let us 
take a look at those kinds of features.
    Chairman Smith. Any other comments in this area? Dr. Yasar?
    Dr. Yasar. I know we are looking at the achievement scores, 
but that--it may not tell the whole story, so in student 
attitude and interest and their progress over a number of years 
could tell us that students have learned from these projects.
    Chairman Smith. I am glad to see representatives from our 
educational area of NSF here, and from the Department of 
Education. I mean just from my Michigan farms, a barnyard 
standpoint, it seems to me like you need a capable teacher and 
a capable student, and then you need motivation and balance and 
that sort of comes down to the classroom. Mr. Mikols, Mr. Chi, 
how do you motivate an unmotivated student, or isn't that the 
right question?
    Mr. Chi. Well, I would like to take a stab at trying to 
answer that question. I think if we start with what that 
student is interested in, I am sure that we could find the 
science and find the math that is inherent in anything that 
they are interested in. I think part of the reason why they 
feel unmotivated is because they lack control, that they are 
not pursuing interests that they have, and I think that being 
able to seek out the concepts that are inherent in anything 
that they are interested in is a way to draw them into the 
science classroom and the math classroom and the technology 
classroom. I think the MSP project provides that opportunity to 
have a network available to any teacher to try to cross 
disciplines and try to bring students in a variety of different 
subjects.
    Chairman Smith. Mr. Mikols, any thought then, and then Dr. 
Navarro.
    Mr. Mikols. Yeah, just to go with what Mr. Chi said, a lot 
of time, student interest is so crucial, and if we can allow 
students to pursue something that is of interest to them, and 
then try to tie the mathematics and the science to that, then 
the students are more likely to be motivated, because it is 
something of their choosing. It is something of their design. 
And allowing them to design the kinds of questions that then 
need to be asked to pursue the problem that they are trying to 
solve, and then working in the content with that. And 
sometimes, it is just a matter of also offering students a 
sampling of some of the different things that technology is 
capable of doing, and exposing kids to things that they, 
perhaps, haven't seen or thought of before, as well. And if you 
can kind of mix those two ideas together, allowing some choice 
for the student, but also opening things up for them, then 
perhaps that will help with the motivation of students.
    Chairman Smith. You had a comment, Dr. Navarro.
    Dr. Navarro. What we have done is tried to get scientists 
and engineers into the classroom to begin to show practical 
applications of math and science learning. That begins to kind 
of pique the interest of students, and we also try and provide 
them information about what they can do, not only in terms of 
practical applications of math and science, but how it has 
implications for employment opportunities for the future, and 
what the employment opportunities will result in financially 
and in a variety of ways. That gets the interest of lots of 
students.
    Chairman Smith. You mentioned how important it was, K-16. 
How about the technology that is moving into the assembly line 
for a lot of these students that--I don't know what percentage 
of your students go on to college, but how important do you 
think just the math and science ability is going into the new 
technology of computerized pressing and stamping operations and 
molding operations?
    Dr. Navarro. Well, that is one of the things that we have 
realized, that it is tremendously important not just for 
students that are going on to college, but for all students 
that are hoping to try and find a job that will provide them a 
living wage, and we are trying to make clear to students what 
the linkages are between what they learn in math and science, 
and again, what they will do in even a regular kind of job. It 
doesn't necessarily have to be a college level job. That we 
have found to be a tremendously important piece of information 
that students and especially parents don't understand now, so 
parents are less asking us why do my kids have to take Algebra 
I and Algebra II. I think they are increasingly understanding 
it because of the presentations we have made to parents, not 
just educators, but business people as well.
    Chairman Smith. Yes, Dr. Ferrini-Mundy.
    Dr. Ferrini-Mundy. I think on this point, particularly in 
mathematics, emphasis on some of the sorts of skills and 
processes of the discipline can be really compelling in trying 
to make the case that this prepares all people for all sorts of 
workplaces, so problem-solving, reasoning, justification, 
inquiring, being able to formulate conjectures, the sorts of 
things that don't necessarily show up on lists of topics of 
content, but that are crucial to the teaching of math and 
science.
    Chairman Smith. I think I had better move on. My time has 
gone up, but we will do enough rounds to get all of your 
answers and part of my questions. I mean, part of the goal of 
this hearing is should we--is there anything we need to do in 
changing NSF, the way we are peer reviewing, the way we are 
modeling the goals of this science math partnership effort? So 
we are looking for improvements of direction, how much 
knowledge is out there that we probably might try to capture 
some of the knowledge that is out there. Mr.--Dr. Honda.
    Mr. Honda. Thank you, Mr. Chairman. He has given me a title 
that I haven't earned yet.
    Chairman Smith. You have earned it.
    Mr. Honda. Well, I appreciate the presence of the witnesses 
and your experiences, also, and they are all sort of 
compartmentalized in terms of your area of expertise and 
practice. But what I have heard was that they need to be 
integrated and they need to be applied accordingly. To the 
classroom teacher, Mr. Chi, and to Mr. Mikols or Mikols, I 
appreciated your field-based experience and your insights. And 
my question would be, given that experience and given those 
insights, you have talked about, I guess, to paraphrase, sort 
of integrating the subject matters and not compartmentalize 
them is a critical thing, because we tend to school our 
youngsters to compartmentalize everything from the get-go, and 
by the time they are in high school or middle school, you know, 
every subject is separate and they shouldn't be integrated. And 
I think that that is a large mistake in something that, as a 
policy, that may be a suggestion that you may want to think 
about for board members. So I guess my question would be, based 
upon your experience, which you have gathered now and some 
insights, what policy changes would you recommend to the board, 
not to superintendents, they are the implementers, but to the 
board, so that you can enhance the kinds of things you see.
    Integrating teacher energies and encouraging integrated 
approaches to curriculum development and instructions, where 
science and math are integrated with English and history, 
because we want to have our youngsters feel that they have some 
roots in some of the history. For instance, the Mayans had 
astronomy and math as well developed as the Arabs and the Moors 
had, and they both developed the concept of zero. You know, 
youngsters from ethnic backgrounds are not taught that, that 
they have a history, and so that can be integrated. It is going 
to take a lot of work in terms of team building among the 
instructors, but are those ideas that could be turned into 
policies for school boards?
    And then, as the national policy, should we be looking at 
that rather than only curriculum development? Teacher 
preparation, it seems to me, critical from what I am hearing, 
and rather than only looking on--focusing on kids, I assume all 
kids can learn, so my question is what policy implications do 
you look at in terms of teacher preparation at a national 
level? What you have experienced personally, I think, becomes 
very powerful. My question to the researchers and the teachers 
are--what you have learned now, is that replicated in--if you 
do the research on literature, and if that is so, why are we 
not making that next step? What is that next step in terms of a 
national policy, so that we can move away from focusing on 
student achievement, and talk about national expectations? And 
it may come down to us putting resources where our mouth is, 
and stop blaming the victims.
    So, those are my questions. You may not have time to 
respond to them all orally, but if you have a written response 
that you wouldn't mind sharing, I would love to read it, and I 
appreciate all of your experiences.
    Dr. Yasar. Can I comment? There may be things to be done, 
not only at the school district level, but also at higher 
education. As you know, the target in our project is----
    Chairman Smith. Turn your microphone on.
    Dr. Yasar. Sorry. To have a formal education in CMST, in 
other words, MST. If MST certification were recognized at the 
station education departments, where teacher candidates get 
their certification in MST, rather than just in mathematics or 
in science and technology, they could be very useful in the 
school districts. I have--some of my students who graduated 
from other programs, who were exposed to education in math, 
science and technology, in the school districts, they are 
teaching not only mathematics, but also science and technology. 
And for school districts, this is going to take care of a huge 
need, because most computer science graduates go to industry, 
and school districts have problems finding teachers who can 
teach technology. They go to math teachers and say can you 
teach this, they say no. I didn't receive a formal education. 
So, through the training, or formal education, or State 
education departments creating MST certification, we could have 
teachers who are able to teach in more than one area, and team 
teaching, of course, is also another solution in the districts, 
and I believe that is what is going on in other projects at 
this point.
    Mr. Honda. You know, Mr. Chairman. Just a real quick 
comment. I think I also heard from Mr. Chi that there is a need 
for teachers as a profession to always tell ourselves that we 
are only good teachers when we constantly remain students, and 
that somewhere along the line, we stop being students, and we 
get stuck in our instructional capabilities, and we forget that 
students need to learn constantly and so should teachers, and 
so that--I appreciated that insight. I hope that always stays 
with you, and becomes a strand in the policy and philosophy. I 
think perhaps we have lost--also, perhaps in your written 
response, you might want to discuss the concept of equity in 
education, because I suspect that equity does not exist even in 
one school district. And then I guess the other one is where is 
instruction? Where can it be conducted? Does it have to be in 
the four walls? Stepping back from our institutionalized 
thinking of instruction, are there ways that we can maximize 
technology, the presence of technology in other places and look 
at different ways? You have the toughest job in the world, and 
you are not being compensated properly, but I appreciate your 
stick-to-it-iveness in education and I just want to thank you.
    Chairman Smith. We will do a second round and a third round 
and a--we will try not to wear you out too much. We appreciate 
what you have done to get here. Dr. Ferrini-Mundy, how are you 
going to go about discovering what works and making that kind 
of report? At Michigan State, is that a five-year project, or a 
four-year?
    Dr. Ferrini-Mundy. Five.
    Chairman Smith. How--and then, what would be--is there 
going to be in a fashion that we can put it out across the 
country, is it--how usable is it going to be?
    Dr. Ferrini-Mundy. We hope it will be usable. I mean, as I 
have mentioned, we are just starting, and we are just trying to 
create a shape for this project. We will begin with this 
building of a sort of baseline set of data. So, we will look at 
where students are, what teachers----
    Chairman Smith. Is your mike on?
    Dr. Ferrini-Mundy. It says it is on. We look at where 
students are, what teachers are doing--is that--what kinds of 
standards are in place. We will try to summarize that 
information and then track that as this project unfolds. We 
also expect, because this is so large, that different parts of 
the project, different districts, different schools, even 
different buildings, will use variations of professional 
development. Some might do a sort of coaching model, where 
teachers work with their colleagues inside classrooms to 
support their instruction. Others might move more into a 
technology-oriented, Web-based sort of e-learning.
    Chairman Smith. Did your proposal include dissemination?
    Dr. Ferrini-Mundy. Yes. Yes, our sense will be that we will 
conduct a range of studies within the big project and create a 
plan for actually producing that into a form that is 
disseminatable and shared with the White House.
    Chairman Smith. Do we have, and I don't know, maybe I 
should ask the question to you--of all the knowledge out there, 
of all of our efforts to improve the way we teach and learn, 
has somebody got that on a database someplace that you can--
that researchers can go pick out different studies that have 
taken place over the last 100 years, and do we have that?
    Dr. Ferrini-Mundy. There are examples of that. There are 
also syntheses, wonderful research syntheses. The National 
Research Council produced a report called ``Adding It Up: A 
Mathematical Proficiency for All Students.'' That compiles 
research about mathematics teaching and learning for grades K-
8, and there are examples like that and folks access those 
sorts of things.
    Chairman Smith. Do we have any initial--Mr. Chi, Mr. 
Mikols--do we have any initial data, or do you have suggestions 
on--I don't know what to call them, demonstrations, hands-on 
projects that tend to stimulate interests? Does that work in 
your classrooms? Do you use it?
    Mr. Mikols. Yeah, we use hands-on projects, and----
    Chairman Smith. Well, with your technology and computers 
and----
    Mr. Mikols. Right. And as Mr. Honda was asking, is there a 
mechanism in place where we could require students to 
incorporate the different disciplines. In my district, they 
mandate that students have a certain number of hours of 
community service, so why we can't mandate that there is some 
sort of project that is hands-on and technology-based that is 
interdisciplinary as part of a requirement for a student to 
graduate. I don't know why that couldn't be possible, and it 
could be something that is of a student's choosing. I have done 
several different projects in conjunction with science 
teachers, and those have been effective, measured mainly by 
reactions from the students. They are--the projects that I have 
done have been with advanced placement students, I have taught 
advanced placement calculus, and I did them in conjunction with 
an advanced placement biology teacher, and the response that we 
get is that this was an extremely worthwhile project that they 
learned a lot, and it incorporated technology and it is 
something that they would be able to use, and it is something 
that they talk a lot about.
    We have also done hands-on projects with some of our 
younger students as well, and they are appreciative of the fact 
that they do have some say in what it is that they are 
learning, and it is tied to content that is linked to 
standards, so----
    Chairman Smith. The question as far as any guidance or 
suggestions to the National Science Foundation. What were 
your--what might be--what were your major barriers to 
implementation? Should there be any changes in terms of future 
partnerships? Any thoughts you have on was there sufficient 
outreach by NSF, in anything other than saying you're approved? 
Yeah, Mr. Yasar.
    Dr. Yasar. NSF brought together MSP projects last year in 
January, and there is going to be another one in this coming 
January for all these projects to interact and discuss how to 
build a culture of evidence, so there is a lot of emphasis on 
that. We are all aware that money has been put into education 
for many years, but we need to do things differently. As we try 
different things, we need to build in a culture of evidence, of 
evidence-based, and there is a great emphasis on that. NSF also 
expected all the MSP projects to develop strategic plans. I am 
so thankful that they require that, because we took our grant 
proposal probably 10 degrees deeper in developing an evaluation 
plan that addressed student progress, teacher--impact on 
teacher, and we hope that at the end of the five year period, 
we will have a lot of data to contribute to this evidence base.
    Chairman Smith. Okay. Dr. Navarro, I sort of got the 
impression from some of your comments that the money coming in 
allowed you to continue the good things you are doing. Is there 
an endpoint? Are we discovering something that eventually other 
schools without being given additional Federal money grants, 
can continue the kind of effort?
    Dr. Navarro. I mean, I think that there are many things 
that are coming out of the MSPs and the previous NSF-funded 
efforts that will provide direction to districts and schools 
that don't get these funds. The reality, though, is that if you 
have a large school system, as we do with the close to 160,000 
students in it, and you are trying to get them from where they 
are now, how they are teaching math and science, the level of 
knowledge that their teachers have, and you want to get them to 
a dramatically new place, it seems to me that additional 
resources will be needed. That is what MSP is allowing us to 
do, and engaging the full resources of higher education 
institutions----
    Chairman Smith. But you will continue----
    Dr. Navarro [continuing]. To help us do that.
    Chairman Smith [continuing]. The quality program that you 
have instigated after the Federal funding stops?
    Dr. Navarro. Absolutely. We have gotten commitments from 
higher education institutions and the districts to continue 
this, and they are finding ways of building it in--slowly but 
surely--into their budgets and into their own strategic plans.
    Chairman Smith. One of the complaints many teachers have is 
that the faculty and institutions of colleges, university, 
higher education, have the content knowledge, but are often 
somewhat weak on what it takes to be a teacher and teach that 
knowledge. Any comments that any of you might have in terms of 
this Math Science Partnership in helping--and should we move in 
the direction of helping cure some of those problems, or is it 
a problem?
    Dr. Navarro. I think that if you--if I could just--I think 
if you get people to the table, K-16, without a notion that the 
higher ed people are going to be kind of telling the K-12 
people what to do, or that they are the only ones with the 
content knowledge, I think that that helps enormously. People 
come together at the same place, at the same table, in our MSP, 
and that helps everyone understand that we all have something 
to learn from one another, and that there are plenty of content 
experts at K-12 as well, and that there is a lot to be learned 
about teaching and learning at the higher education level from 
K-12 people.
    Chairman Smith. Any other thoughts on this issue, Dr. 
Ferrini-Mundy?
    Dr. Ferrini-Mundy. No. I would echo what Dr. Navarro has 
said, and add that when people are at the table on sort of 
equal footing, it is also quite interesting when the K-12 
folks, the classroom teachers in particular, start to raise the 
real issues that they face in their teaching, and the subject 
matter questions that K-12 math and science teachers face are 
hard, and they are different from the subject matter questions 
that professional mathematicians and scientists face, and that 
professional mathematicians and scientists can't always figure 
out the best way to help a child understand what a fraction is, 
or the best way to help a child understand what place value is 
about, and so when you get them together and really looking at 
the problems of teaching, I think you do find an equal footing.
    Chairman Smith. So, will anything in your particular 
project proposal, going through Michigan State, look at the 
ability to light my fire, and excite kindergarten and first 
grade and second grade students in science, math, in relation 
to their science and math training, as opposed to their 
teaching abilities and love of students?
    Dr. Ferrini-Mundy. Right, I mean, our hope is to try to 
bring those together, to put them in a place where those two 
conversations are going on at the same time, with people who 
have strong content knowledge and strong knowledge of teaching.
    Chairman Smith. I have a question for you, Mr. Chi, and 
you, Mr. Mikols. We often find that those schools with the 
lowest levels of academic achievement have teachers with the 
lowest levels of skills and knowledge, and in many cases, these 
teachers want to do the very best for their students, but are 
unable, due to a lack of information or education. Upon 
graduation, were you prepared to teach your State's standards 
in math and science, and generally, moving it away from a 
personal question, what do you see as the possible lack of 
students coming from the education--the university system and 
going into teaching of science and math in K-12? Starting with 
you, Mr. Chi, and then you, Mr. Mikols.
    Mr. Chi. Well, just to address, sort of at the same time, 
your question before, I think the MSP program has really 
encouraged a collaboration between higher education and 
teachers in the middle school and teachers in the high school 
system, and because of that, there has become an increased 
awareness on the part of the teachers in higher education, in 
the colleges and universities, that--of the different kinds of 
issues and problems that are faced by teachers in the high 
school and middle school. Because of that, they are becoming 
more sensitive, and as a result, they are better able to 
approach their students as well, and so I think there is a 
little bit of a rubbing off. There is content being 
disseminated from the colleges to the high school and middle 
school level, and there is a sensitivity to pedagogy and the 
intricacies of teaching to the college and university 
professors as well.
    As far as how prepared I was, in terms of my college and 
university experience related to my ability to teach my content 
area, which is science, I feel that I was extremely well-
trained, and I came out of college with a plethora of skills to 
better present the topics and to increase student interests in 
my classroom. So I feel pretty fortunate in that area.
    Chairman Smith. And that was--be a combination of the 
curricula that you--that--whatever the--that you took while you 
were in school, or some of your own initiatives, or a 
combination, I suspect?
    Mr. Chi. Well, where I attended college, which was SUNY-
Geneseo, I was there as a secondary education major, and, being 
a content specialty of biology, it was almost as though I was 
double majoring, where I had a very rigorous content in terms 
of my biology background and my science background, and at the 
same time, there was a very intense training, in terms of the 
pedagogy, so I feel I was very well balanced when I came out.
    Chairman Smith. And Mr. Mikols, then we will move on to Mr. 
Gingrey.
    Mr. Mikols. The comment that was made that low achievement, 
many times, is linked to schools with high teacher turnover and 
having a large population of teachers that are uncertified or 
not adequately trained. That is true. And one of the schools in 
my district, that I am working in, because it is a cited school 
from the State as a low-performing school. They have a 
population of 1,200 students and they had one returning teacher 
in their math department for this school year, so the idea that 
we are training teachers and then losing them the next year, 
and then having brand-new teachers come in and having to 
retrain them again, and then when that pool of qualified 
teachers runs out, we are having to go to hiring uncertified 
teachers to fill those positions, and it is a huge problem.
    There is a college in our area, Roberts Wesleyan College, 
that has a program in conjunction with the city school district 
that is allowing students to take a teaching job. I am sorry, I 
shouldn't say students, because it is--you are thinking of high 
school students, but they are allowing people to take a 
teaching job while they are students at Roberts Wesleyan 
achieving their teacher certification. So we are dealing with 
many, many teachers that don't have a lot of training, and they 
are being put right in the classroom. So, the recruitment issue 
that I think the MSP program can enhance, to me that is huge. 
We have to attract teachers early and often that are highly 
qualified that are thinking of teaching as a primary career, 
not something to fall back on once other things have not been 
successful.
    Professional development is another thing: you just can't 
overemphasize the value of quality professional development 
that is ongoing, that is accountable, that takes teachers and 
moves them out of their comfort zone to get them to change and 
become learners of stuff that is going to be helpful to 
students.
    I will close with one other statement. I graduated from 
Geneseo as well in 1992, with a degree in mathematics, and part 
of our curriculum was graphing calculators back then, so I feel 
well prepared, in the sense that even 10, 11 years ago, the 
need for technology was known then, and I felt like I was ahead 
of the game with that.
    To get certified, I had the degree in mathematics, and then 
we also had to minor in education, so then we also had pedagogy 
courses that helped us to take that content and deliver it in 
ways that would be effective in the classroom.
    Chairman Smith. Mr. Gingrey.
    Mr. Gingrey. Thank you, Mr. Chairman, and I do apologize 
for having to step out. I may have missed, obviously missed 
some of the questions, so if I am--if it has already been 
asked, just forgive me. I obviously didn't hear the answer. 
When I was in school, all math courses were taught, I think, 
Mr. Honda may have touched on this a little bit earlier, as 
stand alone courses. I mean, I can remember, you know, taking 
algebra and geometry and trigonometry and finally, when I got 
to college and was introduced to calculus, everything was just 
kind of stand alone, and it wasn't--I never really enjoyed math 
as much as I think I should have. I never really thought that 
there was any connection between math and physics and 
chemistry, but as I went through college, and approached my 
Bachelor of Science degree in chemistry, I finally realized 
that all of this stuff, at some point, sort of comes together. 
It all is the same basic thing, but I never understood that 
until I was almost a college graduate and about to disappoint 
my pure science teachers and go to medical school.
    But I guess my question for any of you, maybe in particular 
the high school teachers, Mr. Chi and Mr. Mikols, if there were 
some way at the outset, and let us call the outset the eighth 
or ninth grade, to explain to students, maybe an introductory 
course to mathematics, so that they understand that, at some 
point in their career, all of this is going to come back 
together, and it is going to have some real meaning to them and 
some real utility, and it is not just passing another course, 
and each and every one is stand alone and there is no rhyme or 
reason to it, and that is the experience I had. Now, that is a 
long time ago, I have to admit, I hate to admit, but there has 
just got to be some way to excite youngsters to math and 
science, and I want to hear what your thoughts are in regard to 
that, because maybe it is happening. I don't--I was a school 
board member before I became a State Senator, before I became a 
Member of Congress, but I didn't see it as a school board 
member, and you know, I went into a lot of schools. It is still 
like, ugh, you know, I have got to sign up for chemistry or 
physics or whatever, and this nerd concept and all of that 
stuff, you know, you get. Members of Congress, I think, don't 
want to sign up for the Science Committee. There is still a 
little bit of that mentality, excuse me, Mr. Chairman.
    We have got some great scientists on the Committee, some 
Ph.D.s, and I am honored to be a Member of this committee, and 
to serve on Chairman Smith's Subcommittee, but you know what I 
am saying. It is that mentality that we just need to get 
beyond, because this is a world in which, you know, science is 
exciting and, I mean, you know, somebody mentioned earlier 
possibly having someone come into the classroom, whether it is 
a surgeon or maybe the F-18 fighter pilot that I had the honor 
to fly with recently in full flight gear, and to talk about 
aviation, physics and that sort of thing and negative gravity. 
It is just, you know, so if you all would comment on that 
particular suggestion of an introductory course to mathematics 
where people at the very beginning would understand that there 
is something to this, and not just everything stand alone.
    Mr. Chi. Well, I think where we need to sort of begin is to 
change the perception about what the typical scientist is. I 
think you sort of touched upon that a little bit, and many 
students have a misconception that a person who is involved in 
the mathematics and the sciences is stiff and nerd-like or what 
have you, but to broaden their perspective and to show them 
that a fighter pilot, an aviator, a criminologist, is doing 
science and using mathematics and incorporating technology into 
their field, I think that will broaden their perspective on 
what it means to be involved in the sciences. That is a first--
that is an important first step, and to get students 
interested, I think--I would hate to put it this way, but 
somewhat, we need to disguise some of these activities and 
mention the science and the mathematics later on, introduce 
them as fun, interesting topics to investigate, and then later 
on, sort of reveal to them that there is some science and there 
is some mathematics and there is some technology involved in 
these activities, these fun catch activities are scattered 
through our curriculum in Brighton, and oftentimes, the 
``sleeper student'' who is just cruising through and just 
trying to pass the course may suddenly be sparked with some 
interest when we are getting ready to drop a 10 pound pumpkin 
out of a window, when we start to discuss the idea of gravity, 
and it is those activities that, as you pointed out earlier, 
grab and get student attention, and those are some of the 
activities that need to be incorporated into some of these 
curriculums, or curricula.
    Mr. Gingrey. Dr. Yasar.
    Dr. Yasar. You just gave me an opening, and on your 
display, I have a system that I just--it took me probably, if 
you were watching, 10 or 20 seconds to build, and we have 
offered this to students. I don't know if there are any physics 
Ph.D.s here, but I can put a system up here in a minute and in 
10 seconds, I said, and it will take a physics professor 10 
pages of handwriting and probably an hour to develop equations 
of motion and predict the system. Here, we have a tool that 
allows not only me, but only--but also middle school students 
to simulate a physical system. And any student, or any person 
who sees this, asks the question, wow, what can I do with this? 
Well, they can do all kinds of things.
    So, a layered approach using technology, layered approach 
means I show you something, get your interest. I don't tell you 
what it is taking to do this. I hide the mathematics and the 
laws behind this. You don't need to know the physical--physics 
laws, and you don't need to know how to solve a mathematical 
equation. I show you this, you build an interest, and then you 
come with more questions. Then I introduce to you the 
mathematics.
    I believe the threatening aspect of mathematics is that it 
involves multiple steps. That is why students are afraid of 
taking up on mathematics, and I think this is the largest 
problem in mathematics and science education.
    Mr. Gingrey. Dr. Ferrini-Mundy.
    Dr. Ferrini-Mundy. Thank you. I think this is a great 
example, if you can keep it there. So bump this discussion up 
now to the teacher preparation world, where the segmentation 
and the sort of compartmentalization that you mentioned that 
you experienced in high school continues. People who are in 
mathematics departments divide themselves up, the topologists 
are different from the analysts are different from the 
algebraists, and the courses that are taken in mathematics or 
in physics or in chemistry are still quite separate from one 
another. And yet you think about what knowledge a teacher would 
need to bring to bear with this task, with this model in place, 
how they would necessarily need to use their mathematics and 
their physics in concert, how they would need to understand how 
those ideas worked together to apply to this situation. It is 
not likely, I would venture, that the physics and mathematics 
that they have studied in college necessarily prepares them for 
handling a piece of curriculum that has the richness of this 
thing that we are looking at right now.
    So, your question leads into very interesting and difficult 
challenges in teacher education. How do we offer capstone 
courses or integrative kinds of experiences for the prospective 
teacher, so they could do the sort of thing that I think you 
are pointing toward, which seems very promising and 
interesting.
    Dr. Navarro. Right, and I would just add that just as you 
are saying, Joan, about the issue of teacher preparation as 
being the place where you really want to try and bring all of 
those elements together, one of the issues that I think we 
would have to address is the issue of curricula, and how do we 
provide the kinds of curricula that help synthesize all of this 
for students, so that not necessarily when--would we wait until 
they get into high school, but in their early school 
experiences, we are helping them see how they need to bring all 
of these elements together. And we have to make that easy for 
teachers to do, because even given the best teacher 
preparation, they still will be guided by the curricula that 
they have, and that is where we need to make the linkages and 
synthesize this knowledge for them.
    Mr. Gingrey. Mr. Chairman, I know I have used up all of my 
time, and I apologize for that, and if there is another round, 
maybe we can continue on this, or do we--can we hear from----
    Chairman Smith. I will take my next five minutes now and 
then give it to you. Some schools have decided, some school 
boards have decided that at the minimum, every student has to 
take algebra and pass it, as a qualification for graduating 
from high school. And it was interesting, the reaction of a 
couple students that said well, they didn't like the math. It 
was really too much work, but as long as it is a requirement, 
they are going to do it. Says it takes a little extra homework, 
and so I am not sure where the motivation--I mean, it is 
obvious where the motivation comes from in this one. I wanted 
to ask the question, also, about parents, and anything in our 
studies, or should we encourage some of the studies to involve 
parents in this whole effort of exciting math and science 
education? Who would like to--and how do you do it? How should 
we research it? Or should we have a special effort in some of 
the requests for proposals that include that? Anybody wish to 
respond?
    Dr. Navarro. Well, I will just talk a little bit about the 
first issue that you raised, and also link it to parents, and 
that is we really believe that we have to expect more of 
students before they will recognize how important it is to 
deliver on things, so that one of the things that we did was 
work closely with our partner districts to support them in 
requiring that all students take three to four years of college 
preparatory mathematics and science in order for students to 
graduate. We strengthened that when we realized that some 
schools, and schools with the largest number of poor and 
minority students were most likely to be waiving lots of their 
students from those requirements.
    Now, we limit the requirements to just 10 percent, but 
parents were a very big part of this, because some of the 
parents were just very upset, why does my child have to take 
algebra II? Why does my child have to take chemistry? It is 
very hard, it requires too much homework, and I think that is 
where these presentations on the part of key business and 
community leaders are really crucial. Parents, once they 
understand that this will enhance the ability of their children 
to do well in the world of work, to earn far greater lifetime 
incomes, are easy to be persuaded. Now, you also have to 
provide supports for students so that they can take these 
courses and do well, and that there is tutoring available and 
that sort of thing. Parents will require that, but we have been 
very successful in providing education, particularly to key 
leaders within each of the communities, each of the school 
communities, so we are focusing on three or four parent leaders 
and provide them the education and training, the information 
that is needed, and then they reach larger sets of parents back 
at the school.
    Chairman Smith. Mr. Gingrey, I am going to let you get 
this.
    Mr. Gingrey. Mr. Chairman, thank you. Mr. Mikols, I think 
you were going to respond to my question and didn't get a 
chance.
    Mr. Mikols. Yeah, the point that you were bringing out is 
where do the kids start to see the link between math and 
science, and where is the interest level. We know by shows like 
CSI that that interest is there, it is just how do we get it 
into the classroom, and Dr. Yasar was talking about layering 
things and Dr. Navarro was saying well, this is not something 
that should just be something that is from grades twelve 
through sixteen, but where do we begin it? And one of the tools 
that we have used in the CMST program is a tool called STELLA, 
and it is a program that you can use to make mathematical 
models of rates of change, and we have made a program that 
models half-life, and half-life, I think, is a fairly easy 
topic for even younger students, fifth, sixth, maybe seventh 
grade, to grasp of what is happening, but the program is 
layered in the sense that it does take quite a bit of thinking 
to make the program, so that is something that you could offer 
to students of--at the higher levels, but to use the program, 
that is something that sixth, seventh and eighth grade students 
could do and get it, a good idea of how mathematics is used to 
discuss what half-life is, and there are different graphs, and 
the analysis of graphs is something that kids and adults need 
to know how to do.
    So this is just an example of one of the tools that we have 
had in CMST that does take math and science and link it 
together in such a way that you could present that to students 
of varying degrees of sophistication in math and science.
    Chairman Smith. Dr. Ferrini-Mundy wanted to respond. Dr. 
Ferrini-Mundy.
    Dr. Ferrini-Mundy. I wanted to just pick up from this and 
come back to your question about parents. The sorts of 
instructional approaches that you are hearing about here, this 
notion of integration of math and science, this notion of 
hands-on and inquiry-oriented model, base sorts of teaching. 
That kind of instruction looks unfamiliar to lots of parents, 
particularly when you say well, this really is mathematics, or 
this really is physics. It doesn't look like the mathematics or 
the physics that parents may have studied themselves, and so 
the education piece is really crucial in looking at different 
models for how to help parents see the value of this kind of 
course work and at the same time, understand that these 
approaches have promise, and that children will learn something 
useful even from something that might look quite unfamiliar to 
a parent. I think those are really hard questions and continued 
efforts along those lines are needed.
    Chairman Smith. My short version has been that--telling 
parents that Social Security is going broke and maybe their 
retirement security depends on how well their kids do in math 
and science.
    Dr. Ferrini-Mundy. That is good.
    Dr. Yasar. I don't want to put my school district on the 
spot, but there is some difference in terms of parental 
involvement in these two school districts. At Brighton, 
teachers are running away from parents. At City School, parents 
are running away, we can't find them. So, you could attribute 
some of the low success, you know, achievement, to lack of 
parental involvement at the City, and I believe there is an MSP 
project already that targets parental involvement, so we need 
to see more of that.
    Chairman Smith. The phone call I got is, there is somebody 
that came through security that shouldn't have gotten through 
security, so I told my guards to--Mr. Gingrey, we will start 
your five minutes, Mr. Gingrey.
    Mr. Gingrey. Thank you, Mr. Chairman. I think your 
suggestion about a Social Security scare tactic is not a bad 
one, because you know of what you speak. I have heard you do 
many special orders on what is going to happen to Social 
Security if we don't reform it. But while we are waiting on 
that, I did want to ask about the idea of paying math and 
science teachers more, particularly at the high school level. I 
know a lot of times that it is a third rail to mention that to 
any of the education establishment. In no way to suggest that 
the arts and language and history and other things are not 
extremely important, but it is tough to teach math and physics 
and chemistry, and it takes--in my opinion--a really dedicated 
and very intelligent teacher to do that, and if we had a Mr. 
Chi or a Mr. Mikols in every high school in the country, we 
wouldn't have a problem. I am very, very impressed with your 
testimony and--of everybody that is here who has testified, but 
you know, I have always thought that--and I know in some school 
districts maybe it is an optional thing that they can do at the 
local level, but you just can't expect bright teachers that we 
need to teach math and science, to stay in a low-paying 
profession, although I know there is other gratification, other 
reasons why you do it.
    What do you think about that? What do you think about the 
idea of--in every school, paying more to math, science and 
physics teachers, and I am talking about the pure science and, 
you know, you--we might quabble over what is science, but I am 
talking about math, physics and chemistry. Can you comment on 
that?
    Chairman Smith. I think the two teachers might----
    Mr. Mikols. Yes. Yeah, I would be the first one to say 
sure, you know, that is a great idea. But it is a question of 
market. You know, you have a certain supply, you have an 
overwhelming demand, and I think what we can try to do, by 
offering more money to people to go into math and science 
teaching, is to increase the supply of math teachers, because 
right now, in my district, we don't have enough, and financial 
benefit is one thing that may get people to consider a career 
in the Rochester City School District. And you know, with our 
passing rates at the eighth grade exam, what they are, we are 
looking at lots of different options, and one of the things 
that has been mentioned is paying stipends to teachers to go 
from some of the higher-performing schools, and some of the 
teachers with proven success and experience to go to some of 
these schools that are on the cited list as low-performing, to 
try to get them to go and lend their expertise and their 
experience so that these other teachers that I told you about, 
that are making up the huge overwhelming majority of their 
staff, that are extremely inexperienced, have someone who is 
skilled and has a lot of experience to go to, so--and maybe 
money is the way to do that.
    Dr. Navarro. We have provided additional resources at 
several points in the continuum. First, there are through NSF-
funded scholarships and fellowships, more students studying 
math and science and going into education at the secondary 
level in math and science that are receiving help with tuition 
and fees, so those scholarships and fellowships is a draw for 
students, particularly in our low income area. Secondly, a 
number of the districts have found it necessary, because of the 
severe shortages, particularly of secondary teachers, to offer 
those additional stipends for teachers that are fully certified 
in math, science to go into the high schools, and so that has 
been an important aid in getting some additional teachers that 
are fully certified into these high schools.
    One of the arguments that people have made in our community 
is that if individuals graduating with a degree in science can 
move into industry and get jobs at $50,000 plus, what is it 
that, beyond their concern for their fellow human beings, is 
going to draw them to schools where we know the demands are 
great, and sometimes, the challenges are enormous, so if there 
is a small financial incentive for doing that, we think that it 
can be used effectively.
    Mr. Gingrey. Well, we have a course at the Federal level. 
We have done a number of things and as we move toward the final 
reauthorization of the Higher Education Act, there is more--
there is going to be, hopefully, more loan forgiveness for math 
and science teachers and at the local levels, I think a lot of 
school systems will pay an incentive, a bonus, if you will, for 
a math or a science teacher to go into a high need area, and 
that is great. But I mean, I think, and I think you have 
answered my question, that you just literally, at the very 
outset, the generic starting salary should--there should be--
because again, and you mentioned, I think, Mr. Mikols, about 
supply and demand. I think that is the bottom line, that we 
just don't have enough of you guys and gals that, you know, are 
math and science teachers, and we need to incentivize you, to 
not only start in that direction, but to stay there.
    Chairman Smith. We are going to wind this up pretty soon. A 
couple questions I have got is I have been encouraging my 
schools of education that turn out any teacher to start 
requiring a basic course in math and science, so whether they 
are teaching English or phys ed or whatever, they have at least 
a little understanding in math and science that maybe helps in 
some of the questions that might be asked, some of the 
stimulus, some of the--prevent some of the teachers from saying 
well, boy, don't ask me, I never did as good at it and it 
didn't hurt me.
    Any comments? Shall I keep doing that?
    Dr. Navarro. Yes. Absolutely. We require an increasing 
number of courses for all teachers, and I think it is now up to 
something in the range of 28 credit hours in mathematics and 
science for all teachers, irrespective of what they are going 
to be teaching. The big issue for us is who is teaching those 
courses at the post-secondary level, and that is one of our 
challenges in MSP is to make sure that the university faculty 
members that are teaching those courses can excite these 
teachers rather than frighten them, make sure that those 
prospective teachers get more excited rather than--about math 
and science, rather than come to feel that their initial 
perceptions that this was not something I wanted to learn were 
right.
    Chairman Smith. Are any of your MSPs partnering in any way 
with the private sector?
    Dr. Navarro. We are working with our Chambers of Commerce 
to do these presentations at the middle school level about--in 
particular, about ensuring that students know why they should 
go to college, and also why they should study math and science. 
That is something that has worked very well. The business 
people love to make those presentations. They come into contact 
with real teachers and students, and we help them understand 
what the issues are, so we provide a script for them, they can 
tailor it to a certain extent.
    Chairman Smith. I mean we put----
    Dr. Navarro. They like doing it.
    Chairman Smith. We specifically put it in the legislation 
that it has got to be a university and it has got to be a K-12, 
but with the option of partnershipping with the private sector 
and as we were discussing before we put the gavel down, there 
are a lot of companies out there that are trying to enhance at 
least their--the math and the science interest in their 
schools, and so a lot of companies do a lot of work, and I 
would hope, somehow, to NSF or wherever, we need to--we are 
going to start looking at some of the work that they are doing. 
Dr. Yasar.
    Dr. Yasar. In Rochester, Xerox gets a lot of its employees 
from the city school district or others, so they have an 
interest in supporting education through scholarships and 
internships. I think that is a great example for MSPs. Can I 
add a comment? It may not be directly related to business. We 
talked about teachers, and I know there is a lot of burden on 
them. We could make things a little bit easier for students, 
and please note that I went to school in a different country, 
where students were given 15 minutes breaks between classes. 
They had time to relax, plus they stayed in one classroom, 
rather than racing between different classrooms. I think we put 
a lot of burden on students, and not giving them enough time 
for break, it just builds the tension in them. Second, time 
management, class management, becomes a burden on them. So, 
these may be other factors you may consider in--for schools to 
restructure their classes and so on.
    Chairman Smith. Mr. Gingrey, do you have any more 
questions?
    Mr. Gingrey. I would like each one of you, maybe, if you 
would like, to conclude with about a minute on anything that 
you would like to pass on to the Committee. What happens is the 
other Members of the Committee will review the testimony and 
anything that you would like to add, starting with you, Dr. 
Ferrini-Mundy.
    Dr. Ferrini-Mundy. Yes, I would just again thank you for 
the opportunity to speak here today, to say that I think, 
although we are new at it, that this MSP program looks very 
promising. I think that there will be some things that NSF 
seems already to be doing that may become quite crucial. 
Connecting these projects, I mean it is obvious just from the 
conversation here that we can learn from each other and if the 
Agency is able to really enable us to do that, that will be 
crucial, and also, to build up this commitment, I think, to 
evidence, to sharing research findings, to learning from these 
projects. I think it could be a wonderful contribution to the 
improvement of mathematics and science learning.
    Chairman Smith. Dr. Yasar.
    Dr. Yasar. I want to thank you for inviting me, and I want 
to thank NSF and the Federal Government for the opportunity. I 
have never been so excited about a project, so whatever 
education, 25 years of education I had, it all comes to a 
culmination here, and the integrated math and science 
education, I never found a champion program under DOE or NSF 
for years, and MSP gave us that opportunity, and brought school 
districts and higher education and industry together, so I 
would like you to support this program, as long as and as much 
as you could. Thank you.
    Chairman Smith. Good. Thank you. Mr. Chi.
    Mr. Chi. Well, I would like to address something that was 
brought up earlier. I forget which one. One of you mentioned 
equity in one of your comments, and I think the MSP program 
has, through its funds, has provided access to some of the 
technologies, to peoples that might not necessarily be able to 
get their hands on that technology, be it for financial 
reasons, economic reasons, and by narrowing the gap between the 
haves and have-nots, I believe that we are coming closer to a 
place and time where people have access to and skills in 
technology that will open up opportunities for them that they 
might not otherwise have, if it wasn't for programs like this.
    Mr. Mikols. Again, I would like to thank you for the 
opportunity to appear here.
    Chairman Smith. Mr. Mikols.
    Mr. Mikols. And just with the job I have to do with my 
district, we realize that change is necessary. Change can be 
fearful, but we also realize that change is possible and that 
change represents growth, and through programs like the CMST, 
where we are able to use technology to allow students to take 
on a larger role in the responsibility of their learning, we 
see that it is crucial.
    Chairman Smith. Dr. Navarro.
    Dr. Navarro. I think this is--I have been doing this work 
for about 20 years. I think MSP is the hardest work I have ever 
done, that our community has ever done, and I just hope that as 
we run into the inevitable difficulties and complications of 
this, that there will be an understanding that the difficulty 
and the problems are part of the process, and that we can learn 
from those and share our understanding and that NSF and 
Congress will understand when we run into these problems and 
will see it as an opportunity to really learn much more about 
what it takes to really excite and light the fire in young 
people about math and science.
    Chairman Smith. Again, thank you all, not only for being 
here, but for the work that you do to improve math and science 
education. That is, I think, so important to our future. And 
one last request I would have of you. If you would consider 
answering any questions that staff thinks that maybe we didn't 
answer, that we asked, that we should have asked, and defining 
Mr. Honda's question that he wanted you to respond to, if you 
would--we would send those to you and if you might respond, we 
would appreciate it.
    With that, the Subcommittee is adjourned.
    [Whereupon, at 2:24 p.m., the Subcommittee was adjourned.]

                              Appendix 1:

                              ----------                              


                   Answers to Post-Hearing Questions



                   Answers to Post-Hearing Questions
Responses by Osman Yasar, Principal Investigator, Targeted MSP Grant, 
        SUNY-Brockport

Questions submitted by Representative Michael M. Honda

Q1. What approaches and policies could move the K-12 educational 
framework toward a model that takes a fully integrated approach to 
subject matter [where fully integrated would mean moving beyond the 
idea of teaching just math and science together, but also including 
such other disciplines as history, literature, etc.]?

A1. The most effective way to implement a fully integrated approach 
would be through a mechanism or a tool that demonstrates the interplay 
of subject matters. Today, many disciplines in humanities and sciences 
use simulation and modeling technology to advance knowledge and 
discovery. There must be a curriculum in schools that draws upon 
modeling-based computational and information technologies. There is 
need for quality professional development to train teachers how to use 
a curriculum that is student centered, multidisciplinary, and uses 
technology effectively. Furthermore, there is need for a 
multidisciplinary education and preparation teachers. No real change 
could occur at K-12 without changes in our colleges.

Q2. Do you have suggestions on how this model could be sold to 
students at the local level, as well as how this could be achieved on a 
national level?

A2. Assessments and standards on the State and eventually the federal 
level should address a multidisciplinary approach. Use of technology to 
promote such an approach could be easily sold to students. As 
traditional, lecture-based classroom roles are changing, educators and 
students work collaboratively in more open-ended teaching and learning 
experiences. The motivational aspect of technology is a principal 
reason that educators try so hard to master and apply technology tools. 
Perhaps the best way to sell this model is to pilot such a 
multidisciplinary (integrated) curriculum. Government funding should be 
made available to schools and communities. School administrators could 
push to mandate projects at all grade levels that require a 
multidisciplinary approach. School boards must have tangible evidence 
that this approach works if they are going to buy into it. Satisfied 
students and teachers demonstrating achievement of State and national 
standards will be very convincing. A concerted effort by federal 
funding agencies and professional societies could help bring national 
attention and endorsement.

Q3. Do you have any policy recommendations for ways to change teacher 
training and professional development so that teachers will be prepared 
to teach in such an integrated education system?

A3. State Education Departments need to issue multi-area teaching 
certifications. An example is a certification in math, science, and 
technology (MST). There are many advantages of such a combined MST-
certification to its holders, including improved employability and 
adjustability to changing job environment and school needs. 
Universities need to offer degree programs with necessary credits to 
satisfy certification requirements in more than one area. Teacher 
preparation and training programs need to incorporate a 
multidisciplinary and technology-based education. An example is our MSP 
project at the SUNY College at Brockport.

                   Answers to Post-Hearing Questions

Responses by Ed Chi, Science Teacher, Brighton School District, New 
        York

Questions submitted by Representative Michael M. Honda

Q1. What approaches and policies could move the K-12 educational 
framework toward a model that takes a fully integrated approach to 
subject matter [where fully integrated would mean moving beyond the 
idea of teaching just math and science together, but also including 
such other disciplines as history, literature, etc.]?

A1. In my opinion, the project portfolio based model would be able to 
take a more integrated approach to the subject matter. Not only can 
science, mathematics, literature and social studies be included but 
also art and technology. In this model, students approaching the end of 
their high school studies are required to create a portfolio with an 
overarching theme of their own choosing. Their choice must be submitted 
well in advance of their presenting their portfolio to a team of their 
teachers. The portfolio would include an exploration of the historical, 
literary, scientific, even the artistic and technological aspects of 
their topic. For example, a student may choose Civil War America as 
their overarching theme. The student can include a paper on the Red 
Badge of Courage, an analysis of the cotton plant's life cycle and 
explanation of its transformation from seed to fabric to fulfill the 
Literature, Science and Technology requirements. The student can create 
a paper analyzing the consequences leading up to the Civil War. At a 
set time students will present their portfolio to a team of their 
teachers where the student will be interviewed about their experience 
and the process of creating their portfolio.

Q2. Do you have any suggestions on how this model could be sold to 
school boards at the local level, as well as how this could be achieved 
on a national level?

A2. To my knowledge, many schools have tried this model in the recent 
past. However, it has since fallen out of fashion. However, I feel 
colleges and universities who train teachers can continue to include 
this model in their educational foundations courses.

Q3. Do you have any policy recommendations for ways to change teacher 
training and professional development so that teachers will be prepared 
to teach in such an integrated education system?

A3. State University of New York College at Geneseo had an educational 
foundations course that required students from a variety of disciplines 
to work on a portfolio-based assessment project. During this project, 
teams of students chose themes and put together a sample of such a 
portfolio. We also created assessment rubrics and critiqued other 
student teams' projects.

                   Answers to Post-Hearing Questions

Responses by Jeffrey M. Mikols, Math Teacher, Rochester City School 
        District, New York

Questions submitted by Representative Michael M. Honda

Q1. LWhat approaches and policies could move the K-12 educational 
framework toward a model that takes a fully integrated approach to 
subject matter [where fully integrated would mean moving beyond the 
idea of teaching just math and science together, bat also including 
such other disciplines as history, literature, etc.]?

A1. There must be curriculum used in schools that support such a model. 
Many teachers use creativity in planning lessons that will engage 
students and address a multidisciplinary approach There exists 
curricula, however, created by experts in education that have been 
carefully researched, planned, arid field tested that is ready for 
teachers to use. Using such curricula does not absolve teachers from 
planning lessons, it just gives them a place to start their planning 
process. There are curricula, some funded by NSF, that take a 
multidisciplinary approach that is not solely math and science linked. 
It would not be wise to roll out this type of curriculum without 
training. This emphasizes the need for quality professional development 
to train teachers how to use a curriculum that is student centered, 
multidisciplinary, and uses technology effectively. It is also 
important that a school district adopts a curriculum such as this for 
K-12. I currently work in a school district where there is a 
traditional mathematics curriculum used K-5, a multidisciplinary, 
student centered, conceptual based mathematics curriculum used in 
grades 6-8, then a traditional mathematics curriculum used in grades 9-
12. It is confusing to students to go from a traditional approach to a 
student centered approach, then back to a traditional approach.

Q2. Do you have suggestions on how this model could be sold to 
students at the local level, as well as how this could be achieved on a 
national level?

A2. State assessments often determine what teachers value as important 
to train their students on. Assessments on the State and eventually the 
federal level should address a multidisciplinary approach. There must 
be research presented to local school boards that demonstrates that 
this approach will work with the demographics in their community. 
Another important component is to show that this curriculum is aligned 
with local, State, and national assessments. It is not sufficient to 
teach to any test, but ignoring assessment components is not a valid 
option, either. Perhaps the best way to sell this model is to pilot 
such a curriculum and demonstrate student work and allow teachers and 
students to present to school boards what it is they are learning and 
how they enjoy this model of learning. School administrators should 
push to mandate projects at all grade levels that require a 
multidisciplinary approach. School boards must have tangible evidence 
that this approach works if they are going to buy into it. Satisfied 
students and teachers demonstrating achievement of State and national 
standards will be very convincing.

Q3. Do you have any policy recommendations for ways to change teacher 
training and professional development so that teachers will be prepared 
to teach in such an integrated education system?

A3. Professional development is the key to implementing effective 
change in an education system. There are many crucial components to 
effective professional development. Professional development must be 
embedded in the regular school day with actual classrooms and students. 
Teachers can use their training with their target audience while being 
supervised and coached by expert teachers. Theoretical training about 
what should happen in the classroom is not enough. Teachers must have 
the opportunity to experience what should happen first hand. Expert 
teachers could coach, co-teach, model, and help with planning the 
teacher being trained. This support must be ongoing. Professional 
development must be nurtured over a period of time. A one time training 
during an all day session with no follow-up will not lead to the type 
of change necessary for this model to work. Establishing model 
classrooms where multidisciplinary, student centered curricula are 
being used would be an effective way to allow trainee teachers to see 
first hand the effectiveness this type of environment provides. These 
model classrooms provide opportunities for the ongoing professional 
development that is necessary. Teachers being trained could visit at 
any time and see exactly what they are being told they should establish 
in their own classroom.

                   Answers to Post-Hearing Questions

Responses by M. Susana Navarro, Principal Investigator, Comprehensive 
        MSP Grant, University of Texas, El Paso

Questions submitted by Representative Michael M. Honda

Q1. What approaches and policies could move the K-12 educational 
framework toward a model that takes a fully integrated approach to 
subject matter [where fully integrated would mean moving beyond the 
idea of teaching just math and science together, but also including 
such other disciplines as history, literature, etc.]?

A1. It is my view that a fully integrated approach to subject matter 
would not necessarily require that all disciplines be taught together, 
but that students draw from different disciplines in learning all 
subjects. It is also critical that students have a strong grasp in core 
areas--particularly reading fluency, comprehension and writing--in 
order to be successful in all content areas.
    My colleagues and I at the El Paso Collaborative for Academic 
Excellence, recognize the importance of literacy in ensuring that 
students are successful in all subjects. Because of this, we are 
implementing the Literacy in Action initiative as a key strategy for 
assisting students facing increasing language laden content in all 
subjects, but particularly in mathematics and science. Our work in 
Literacy prepares students to think at deeper levels and drew on the 
skills necessary for reading in the various content areas--including 
math and science--using informational/expository texts.
    To address the need for reading in the content areas, full time 
Literacy Leaders work collaboratively with teachers in piloting and 
revising a writing curriculum produced to support capacity building 
needs. By utilizing the writing curriculum there has been an increase 
in comprehension and application in the classroom. A priority continues 
to be the use of text analysis, particularly in non-narrative forms of 
writing, as a way of helping students to increase their ability to read 
and comprehend content in standards-based curricula in mathematics, 
science and other content areas. As a result of our work in Literacy, 
we can report: higher than expected student scores on the Texas 
Assessment of Knowledge and Skills (TAKS), which also exceeded the 
state average; improved student writing selections as shown through an 
increase in length and complexity both in general course work and state 
writing assessments; an increased number of hours of professional 
development in classrooms and through non-traditional forms such as 
book groups and small grade-level study groups; higher levels of 
professional discourse due to professional reading and discussions; 
restructuring of school budgets to prioritize increased funds for the 
purchase of informational/expository texts; and increased participation 
by secondary teachers participating in professional development 
activities, including the Guest Author series.
    Relevant policies for promoting strong skills in literacy to 
support learning across all content areas, could include requirements 
that teachers across all subject areas receive sufficient professional 
development pertaining to key components of literacy.

Q2. Do you have suggestions on how this model could be sold to school 
boards at the local level, as well as how this could be achieved on a 
national level?

A2. In promoting the integration of content areas--particularly a more 
comprehensive approach to literacy--it is important to recognize first 
that discipline-based standards and testing determine what is taught in 
the classroom, and that efforts to better integrate core subject areas 
need to be reflected in the standards, textbooks and other curriculum 
materials, and ultimately tests for which students and schools are 
being held accountable.
    An emphasis on ensuring that teachers are effectively trained to 
integrate key competencies--particularly focused on literacy--into all 
subjects is where the greatest difference can be made. This requires 
that sufficient time and resources be allotted for professional 
development.

Q3. Do you have any policy recommendations for ways to change teacher 
training and professional development so that teachers will be prepared 
to teach in such an integrated education system?

A3. Teacher preparation typically reflects the value of singular 
content specialization and training has been emphasizing content 
specialization rather than inter-disciplinary approaches. At times, 
there are important reasons for this--particularly at the secondary 
level where students sometimes are taught by teachers without a degree 
in their field. It must also be recognized, however, that within higher 
education--faculty tend to focus on their own disciplines. Despite 
these challenges, however, the importance and value of applying high-
level skills, in literacy for example, to all content area cannot be 
diminished.
    In addition to encouraging higher education faculty to emphasize 
the importance of literacy in training teachers, Congress may want to 
consider funding demonstration projects--within higher education 
institutions and school districts--to promote inter-disciplinary 
coordination among university faculty, across colleges and departments. 
Once these models are evaluated, it would then be useful to share best 
practices and lessons learned.

                  Answers to Post-Hearing Questions

Responses by Joan Ferrini-Mundy, Principal Investigator, Comprehensive 
        MSP Grant, Michigan State University

Questions submitted by Representative Michael M. Honda

Q1. What approaches and policies could move the K-12 educational 
framework toward a model that takes a fully integrated approach to 
subject matter [where fully integrated would mean moving beyond the 
idea of teaching just math and science together, but also including 
such other disciplines as history, literature, etc.]?

A1. The concept of a ``fully integrated approach to subject matter'' in 
K-12 education is both tantalizing and daunting. Intellectually, the 
idea that curriculum might be organized in an elegant way so that main 
ideas and themes are taught through a rich mix of contexts across the 
academic disciplines is highly appealing. There have been efforts to 
move in this direction, including various middle school ``thematic'' 
approaches to instruction, including team teaching that couples 
teachers of social studies with teachers of science, large projects for 
students that take up some major problem such as global warming, and 
use it as a setting from which to address key ideas in the academic 
areas of science, mathematics, the language arts, etc. A common 
pairwise ``integration'' is often proposed between mathematics and 
science, and there have been some curricula over the years. (E.g., In 
the 1970s, the Unified Science and Mathematics for Elementary Schools 
project (USMES) was funded at the Education Development Center by the 
National Science Foundation based on recommendations by Cambridge 
Conference on the Correlation of Science and Mathematics in Schools. 
This was an elementary integrated mathematics and science curriculum. 
More recently, COMAP has produced Mathematics: Modeling Our World, a 
grades 9-12 standards-based curriculum. Each unit of the program is 
based on a theme, such as medical lab testing and the broad range of 
mathematics that is used in that field.) These materials are 
attractive, interesting, and highly engaging for students and teachers. 
However, they are not widely used.
    The challenges with integration are quite substantial. First of 
all, K-12 curricular organization in the U.S. historically has been by 
subject matter. When integration is broached, new agreements about 
curricular goals need to be reached, and inevitably, even when only two 
areas are being integrated (such as mathematics and science), the 
traditional curricular goals of one area take a back seat to those of 
the other, for practical reasons. So, for instance, a curriculum 
organized around interesting themes that have a science orientation is 
likely to take up mathematical tools and applications that are needed 
to advance the ideas of the science, but might not take up other areas 
of mathematics that have been considered essential in the U.S. 
curriculum for years.
    So, given that I am somewhat hesitant to claim that a fully 
integrated model is reasonable, I certainly would agree that more 
integration in the K-12 system would be desirable. What policies and 
approaches would help support the system in this direction? Here are a 
few ideas:

        <bullet> Provide funding for the continued development, 
        implementation, evaluation, and dissemination of K-12 
        instructional materials that are interesting models of 
        integration

        <bullet> Support research that helps us learn about the impact 
        of integrated instructional materials on student learning and 
        achievement in traditionally valued areas of the school 
        curriculum

        <bullet> Design assessment tools to measure ``integrated'' 
        understanding. In addition, if high stakes assessments, such as 
        those that will be used by states in NCLB, explicitly addressed 
        students' understanding of key integrative themes and ideas, 
        then possibly instructional practice might shift.

    In closing, however, I cannot underscore how ambitious it would be 
to move in a concerted way toward more systemic integration in K-12 
education. There are enormous conceptual obstacles (disagreement about 
what is meant by integration, what areas of the curriculum should be 
integrated, in what ways, what would be left out, etc.), capacity 
issues (teachers are not prepared in ways that help them to do this 
kind of integration; universities are organized along disciplinary 
lines and so reform in undergraduate education would be needed as 
well), and resource issues (very few suitable instructional materials 
exist, assessments need to be designed, etc.).

Q2. Do you have suggestions on how this model could be sold to school 
boards at the local level, as well as how this could be achieved on a 
national level?

A2. Again, this question assumes that a strong model could be designed 
that would be defensible within the education community. Taking that 
assumption (which I feel is unrealistic), then to ``sell'' this to 
school boards, as well as nationally, it seems, would require having 
solid educational research, conducted over several years, to 
demonstrate the impact of the model, and variations of it, on student 
learning under a wide range of conditions (e.g., in urban settings, 
with teachers who are well prepared, in communities with strong 
involvement of local business, etc.). Because an integrated approach 
would require rethinking of educational standards in states and 
nationally, a massive effort in assessment and research, keyed to the 
new ``integrated'' goals, would be needed. Such a program of 
conceptualization, development, research, and refinement is probably at 
least a 15-year undertaking.

Q3. Do you have any policy recommendations for ways to change teacher 
training and professional development so that teachers will be prepared 
to teach in such an integrated education system?

A3.

        <bullet> In teacher education, introduce integrated courses 
        (e.g., mathematics and science, or mathematics and language 
        arts) in the subject matter preparation of teachers

        <bullet> Provide funding for the continued development, 
        implementation, evaluation, and dissemination of instructional 
        materials for use with pre-service and in-service teachers that 
        are interesting models of integration

    In terms of policy, we would need shifts in teacher certification 
policies at the State level, and in the definitions of ``highly 
qualified teachers'' that are part of NCLB.


                              Appendix 2:

                              ----------                              


                   Additional Material for the Record


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
